<html>
<title> - LIMBAUGH AND WEIMER NOMINATIONS</title>
<body><pre>[Senate Hearing 109-145]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 109-145
 
                    LIMBAUGH AND WEIMER NOMINATIONS

=======================================================================

                                HEARING

                               before the

                              COMMITTEE ON
                      ENERGY AND NATURAL RESOURCES
                          UNITED STATES SENATE

                       ONE HUNDRED NINTH CONGRESS

                             FIRST SESSION

                                   TO

CONSIDER THE NOMINATIONS OF MARK A. LIMBAUGH TO BE ASSISTANT SECRETARY 
                OF WATER AND SCIENCE, DEPARTMENT OF THE 
       INTERIOR, AND R. THOMAS WEIMER TO BE ASSISTANT SECRETARY 
         FOR POLICY, MANAGEMENT AND BUDGET, DEPARTMENT OF THE 
                                INTERIOR

                               __________

                             JULY 14, 2005


                       Printed for the use of the
               Committee on Energy and Natural Resources


                                 ______

                    U.S. GOVERNMENT PRINTING OFFICE
23-785                      WASHINGTON : 2005
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

               COMMITTEE ON ENERGY AND NATURAL RESOURCES

                 PETE V. DOMENICI, New Mexico, Chairman
LARRY E. CRAIG, Idaho                JEFF BINGAMAN, New Mexico
CRAIG THOMAS, Wyoming                DANIEL K. AKAKA, Hawaii
LAMAR ALEXANDER, Tennessee           BYRON L. DORGAN, North Dakota
LISA MURKOWSKI, Alaska               RON WYDEN, Oregon
RICHARD M. BURR, North Carolina,     TIM JOHNSON, South Dakota
MEL MARTINEZ, Florida                MARY L. LANDRIEU, Louisiana
JAMES M. TALENT, Missouri            DIANNE FEINSTEIN, California
CONRAD BURNS, Montana                MARIA CANTWELL, Washington
GEORGE ALLEN, Virginia               JON S. CORZINE, New Jersey
GORDON SMITH, Oregon                 KEN SALAZAR, Colorado
JIM BUNNING, Kentucky

                       Alex Flint, Staff Director
                   Judith K. Pensabene, Chief Counsel
                  Bob Simon, Democratic Staff Director
                  Sam Fowler, Democratic Chief Counsel
                            C O N T E N T S

                              ----------                              

                               STATEMENTS

                                                                   Page

Allard, Hon. Wayne, U.S. Senator from Colorado...................     2
Bingaman, Hon. Jeff, U.S. Senator from New Mexico................     3
Craig, Hon. Larry E., U.S. Senator from Idaho....................     2
Domenici, Hon. Pete V., U.S. Senator from New Mexico.............     1
Limbaugh, Mark A., Nominee to Be Assistant Secretary of Water and 
  Science, Department of the Interior............................     5
Weimer, R. Thomas, Nominee to Be Assistant Secretary for Policy, 
  Management and Budget, Department of the Interior..............     5

                                APPENDIX

Responses to additional questions................................    13


                    LIMBAUGH AND WEIMER NOMINATIONS

                              ----------                              


                        THURSDAY, JULY 14, 2005

                                       U.S. Senate,
                 Committee on Energy and Natural Resources,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10:02 a.m., in 
room SD-366, Dirksen Senate Office Building, Hon. Pete 
Domenici, chairman, presiding.

          OPENING STATEMENT OF HON. PETE V. DOMENICI, 
                  U.S. SENATOR FROM NEW MEXICO

    The Chairman. The committee will please come to order. 
We're here this morning to consider the following nominations 
for positions within the Department of the Interior: Mark A. 
Limbaugh to be Assistant Secretary, Water and Science; and R. 
Thomas Weimer--is that it?
    Mr. Weimer. Yes, sir.
    The Chairman. To be Assistant Secretary for Policy 
Management and Budget. And Senator Craig wants to introduce Mr. 
Limbaugh, and Senator Allard wants to introduce Mr. Weimer.
    I welcome both of you to the committee. The positions to 
which the two of you are to be nominated have within them the 
purview for many issues that are extremely important to a 
number of the States represented by Senators on this committee, 
and obviously many others.
    Many of us, therefore, take a very personal interest in 
specific issues you must address that sometimes transcend our 
border concerns that you are effectively administering within 
the Department's programs. Therefore, I am pleased that 
individuals of your high caliber have agreed to assume these 
responsibilities, and look forward to working with you when you 
are confirmed.
    If any of you have members of your family present, please 
introduce them if you would like now.
    Mr. Limbaugh.
    Mr. Limbaugh. Thank you, Mr. Chairman and Senator Bingaman. 
I'd like to introduce my wife, Cindy, and my daughter, Allison, 
and thank you for the opportunity to introduce them.
    The Chairman. Thank you very much.
    Mr. Weimer.
    Mr. Weimer. No family here today, just friends and 
acquaintances. Thank you, Mr. Chairman.
    The Chairman. Now we're going to ask Senator Craig if he 
would make his remarks regarding Mr. Limbaugh and then we'll 
move right quick to you, Senator Allard.

        STATEMENT OF HON. LARRY E. CRAIG, U.S. SENATOR 
                           FROM IDAHO

    Senator Craig. Mr. Chairman, Senator Bingaman, let me thank 
you for an opportunity to introduce a friend and an important 
constituent to me in Idaho from the town of Fruitland. The 
great news is that Mark is doing extremely well and has a 
tremendous opportunity to serve us in a new capacity here in 
Washington. The bad news is that he reminds me that I once 
remembered him when he was a small boy, which would suggest to 
me, Mr. Chairman, that I grow older. But then maybe Mark does 
too.
    Mark currently serves as Deputy Commissioner for the 
Department's Bureau of Reclamation. He is here today with his 
wife and daughter who he has introduced. Mr. Chairman, as 
Deputy Commissioner, Mark Limbaugh has worked vigorously to 
draft and implement administration initiatives, including his 
recent work on the Secretary of the Interior Gale Norton's 
Water 2025 initiative, which as you know is extremely important 
as a program for the nation, and particularly for the arid 
west.
    His contributions to the Department prompted Secretary 
Norton during a May 10 press release to express her confidence 
in Mr. Limbaugh's nomination, stating, ``With Mark's continued 
leadership, I have extreme confidence that Americans will 
continue to be well served by the Interior's work on both water 
and science issues.''
    As a native of southwestern Idaho, Mark has continued his 
service at both the regional and national levels. After 
graduating cum laude from the University of Idaho in 1978 with 
a B.S. in accounting, Mark worked for a number of years for the 
CPA firm of Deloitte & Touche, located in Boise. Since 1979, he 
has remained a licensed CPA although he no longer practices.
    As a private businessman for well over 10 years, Mark owned 
and operated nearly 800 acres of commercial farming operation 
in Idaho. In addition, Mark has served as president and 
director of the Family Farm Alliance, a grassroots water 
resource association representing water users in the West on 
national water issues, as well as serving as a board member of 
the U.S. Committee on Irrigation and Drainage, whose main 
objective is to improve water management for irrigation 
drainage and flood control purposes.
    Mr. Chairman, as I hope I've made clear, Mark is an 
outstanding citizen, a devoted family man, a highly qualified 
candidate for the job of Assistant Secretary of the Department 
of the Interior for Water and Science. He will reflect well on 
the agency and clearly be an asset to this committee as we can 
rely on him. I'm confident he'll be back when we need him to 
discuss those important issues that we put high priority on. I 
thank you, Mr. Chairman, and it is my privilege to introduce 
Mark Limbaugh to the committee.
    The Chairman. Thank you very much, Senator Craig.
    Senator Allard.

         STATEMENT OF HON. WAYNE ALLARD, U.S. SENATOR 
                         FROM COLORADO

    Senator Allard. Good morning, Chairman Domenici, and also 
to my other colleagues on the committee, Senator Bingaman and 
my colleague from Colorado, Senator Salazar. Chairman Domenici 
and Senator Bingaman, I appreciate that you have provided me 
with the opportunity to introduce my fellow Coloradan, Tom 
Weimer, to the committee. I'd like to speak for just a moment 
on Mr. Weimer's background and the experience that qualifies 
him to serve in the position of Assistant Secretary of Policy 
Management and Budget at the Department of the Interior.
    As you may be aware, Mr. Weimer spent 4 years as chief of 
staff for your fellow New Mexican, Manuel Lujan, Jr., when he 
was Secretary of the Interior. In that capacity, he was 
involved in management and policy development spanning a wide 
array of natural resources and environmental issues. For the 
past 4 years, he's been the principal deputy in the 
Department's Water and Science Office, and for the last 7 
months, he has served as the Acting Assistant Secretary. In his 
capacities there, he has overseen the work of the Bureau of 
Reclamation and the U.S. Geological Survey.
    In addition to his experience in the executive branch, Mr. 
Weimer has over 10 years of experience as a staff member and 
staff director on two House of Representatives committees 
working on energy, science and technology policy and budgets. I 
urge the committee to give Tom Weimer a full consideration and 
move his nomination forward expeditiously.
    I thank you again for the opportunity to introduce Mr. 
Weimer and your consideration on this most important matter. 
Thank you, Mr. Chairman.
    The Chairman. Thank you very much, Senator. Now, the two 
Senators who did the introducing are free at this point, unless 
some Senator has a question of them. This is your chance if you 
want to interrogate Senator Craig, Senator Burns. No, he's 
leaving. You can't do that today.
    Let me ask before we proceed to the swearing in and 
testimony, any Senator--thank you, Larry. Any Senator have any 
opening remarks they'd like to make?
    Senator Bingaman.

         STATEMENT OF HON. JEFF BINGAMAN, U.S. SENATOR 
                        FROM NEW MEXICO

    Senator Bingaman. Thank you, Mr. Chairman. Thank you for 
having the hearing. I strongly support both of these nominees. 
I think they're extremely well qualified for these positions. I 
would just mention one issue that I know Mr. Limbaugh's bound 
to be talking to both of us and others on the committee about 
in the coming months, and that is the whole issue of how to 
resolve some of the Indian water rights claims that we have a 
lot of in our State and throughout the West. That's got to be a 
priority, and it's one that you've worked hard on, Mr. 
Chairman, and I have as well. And we look forward to working 
cooperatively with the Department to get those issues resolved.
    Thank you very much.
    The Chairman. You're absolutely right, Senator, and they 
are very, very difficult problems.
    Senator Bingaman. I will have a few other questions I'll 
put in the record for both of the nominees. Thank you.
    The Chairman. Anything else, Senators? All right. The rules 
of the committee which apply to the nominees require that they 
be sworn in connection with their testimony, so would both of 
you rise and raise your right hands, please?
    Do you solemnly swear that the testimony you're about to 
give to the Senator Committee on Energy and Natural Resources 
shall be the truth, the whole truth, and nothing but the truth?
    Mr. Weimer. I do.
    Mr. Limbaugh. I do.
    The Chairman. Please be seated. Now, before you begin the 
statements, I'm going to ask you three questions which we ask 
of all nominees. Each of you will please respond separately to 
each question.
    First, will you be available to appear before this 
committee and other congressional committees to represent 
departmental positions and respond to issues of concern to the 
Congress, Mr. Limbaugh?
    Mr. Limbaugh. I will.
    The Chairman. Mr. Weimer?
    Mr. Weimer. I will.
    The Chairman. Are you aware of any personal holdings, 
investments, or interests that could constitute a conflict or 
create the appearance of a conflict of interest should you be 
confirmed and assume the office to which you have been 
nominated by the President, Mr. Limbaugh?
    Mr. Limbaugh. Mr. Chairman, my investments, personal 
holdings, and other interests have been reviewed by both myself 
and the appropriate ethics counselors within the Federal 
Government. I have taken the appropriate action to avoid any 
conflicts of interest. There are no conflicts of interest or 
appearances thereof to my knowledge.
    The Chairman. Mr. Weimer?
    Mr. Weimer. Mr. Chairman, my investments, personal 
holdings, and other interests have also been reviewed, both by 
myself and by the appropriate ethic counselors within the 
Federal Government. I have taken appropriate action to avoid 
any conflicts of interest. There are no conflicts of interest 
or appearances thereof to my knowledge.
    The Chairman. Thank you very much. Now each of you may now 
make a brief statement. I encourage you to summarize your 
statements. The rest of the statement in its totality will be 
made a part of the record. After you have finished, the 
Senators will have questions. Mr. Limbaugh, will you be begin, 
to be followed by Mr. Weimer.
    Let me suggest to the Senators something I would like to 
do. We're going to be involved in a series of votes. I would 
nonetheless like to complete these hearings today. I'd like to 
do it in the following manner if it's satisfactory, Senator 
Bingaman. The vote is up, as I understand it, and it will be 
followed by a succession of votes. I would like to leave the 
hearing open, ask the witnesses to stay, and whenever a Senator 
desires, come and ask questions if he so desires, finish their 
questions, we'll leave it open if another one comes and we'll 
follow in sequence until we are finished. And let's say for 
everybody's concern that timeframe will be from now until 
11:30. Is that fair enough? Anybody that has questions will 
find their way back here by 11:30.
    Now, do we have time now? Let's start and see what happens. 
I forgot one question my staff tells me. The third of my 
questions was--if you'd answer it each of you--are you involved 
with or do you have any assets held in blind trust?
    Mr. Limbaugh?
    Mr. Limbaugh. Mr. Chairman, no, I don't.
    The Chairman. Mr. Weimer?
    Mr. Weimer. No.
    The Chairman. Now, would you proceed? You start, Mr. 
Limbaugh, and then we'll proceed with Mr. Weimer.

    TESTIMONY OF MARK A. LIMBAUGH, NOMINEE TO BE ASSISTANT 
   SECRETARY OF WATER AND SCIENCE, DEPARTMENT OF THE INTERIOR

    Mr. Limbaugh. Thank you, Mr. Chairman, Senator Bingaman, 
and members of the committee. I am honored to appear before you 
today as the President's nominee to serve as Assistant 
Secretary for Water and Science at the Department of the 
Interior. I am humbled to be selected by the President and 
Secretary Norton and promise that if confirmed by the Senate, I 
will uphold the trust placed in me through the attributes of 
honesty, integrity, and hard work.
    Growing up in the arid Western State of Idaho and in a 
family farming operation that depended so heavily on irrigation 
water for their livelihood, I have come to understand the 
importance of certainty in water supplies for irrigated 
agriculture, growing communities, and environmental needs.
    I have worked as a certified public accountant, a farmer 
and rancher, a State water master, an executive director of a 
water user organization, president of the Family Farm Alliance, 
and most recently as Deputy Commissioner of the Bureau of 
Reclamation here in Washington, D.C. My experiences in managing 
water at the local, State, and Federal levels have instilled in 
me the importance of a modern and well-maintained water and 
power infrastructure, and respect for the role of the Western 
States in allocating and managing the water resources entrusted 
to them at statehood.
    Secretary Norton has attained many accomplishments through 
her four C's philosophy of communication, cooperation, and 
consultation, all in the service of conservation. I 
wholeheartedly subscribe to this philosophy. I used it to 
resolve water issues in the Payette River Basin in Idaho and in 
dealing with many challenging water issues during my current 
tenure as Deputy Commissioner.
    The Secretary's Water 2025 initiative managed through the 
Bureau has focused Federal resources on resolving water 
problems proactively in areas of the West where conflict can be 
predicted and possibly prevented. I believe in this initiative, 
and if confirmed, will work with this committee and the 
Congress to continue its implementation and communicate its 
successes.
    If confirmed, I will continue to work with this committee 
and the Bureau of Reclamation in addressing financing for 
modernization of aging infrastructure, obtaining congressional 
authorization for a rural water program, and preventing crises 
and conflict over water in the West through permanent 
authorization of the Water 2025 grants and cooperative 
agreements authority.
    I will also work to assess and implement organizational and 
management improvements within Reclamation in order to improve 
efficiencies and reduce costs.
    Western communities, farmers and ranchers, tribes and the 
States, and the Congress all deserve a focused, efficient, and 
fiscally transparent Bureau of Reclamation. If confirmed, I 
intend to work diligently to continue efforts to address these 
issues.
    Also, if confirmed, I will embrace the opportunity to work 
with the U.S. Geological Survey in bringing sound science and 
information to decisionmakers in the public. The USGS is the 
premiere natural resources science agency for this Nation, and 
I will work to protect the integrity of this role. I have 
always been an advocate for scientifically based 
decisionmaking. Objective, credible, peer-reviewed science 
plays a key role in managing our natural resources in a 
balanced manner.
    In closing, again, I am honored to sit before you today as 
the President's nominee. If confirmed, I will work in a 
bipartisan, cooperative manner with the full Senate and with 
this committee and the House of Representatives and with your 
constituents as I have these past few years. I have committed 
to collaboratively searching out fair and balanced solutions to 
complex water and natural resource issues, and believe these 
solutions should respect the States, private property rights, 
the environment, and tribal trust responsibilities of the 
Department.
    Thank you for this opportunity to appear before you today, 
and I would be pleased to answer any questions you may have.
    [The prepared statement of Mr. Limbaugh follows:]
    Prepared Statement of Mark A. Limbaugh, Nominee to Be Assistant 
      Secretary for Water and Science, Department of the Interior
    Mr. Chairman, Senator Bingaman, and Members of the Committee, I am 
honored to appear before you today as the President's nominee to serve 
as Assistant Secretary for Water and Science at the Department of the 
Interior. I am humbled to have been selected by President Bush and 
Secretary Norton and promise that, if confirmed by the Senate, I will 
uphold the trust placed in me through the attributes of honesty, 
integrity, and hard work.
    I was raised on a family farm in Fruitland, Idaho, producing apples 
and other permanent fruit crops, as well as forage crops and cattle, on 
about 800 acres. In fact, the Bureau of Reclamation has played an 
important role in our family for many generations, as the promise of 
federally developed irrigation water brought my family from Missouri to 
the western United States early in the 20th century. Growing up in a 
dry State in a family that depended so heavily on a constant water 
supply, I have come to understand the importance of certainty in water 
supplies, the need for modern and well-maintained infrastructure, and 
respect for the role of the western States in allocating and managing 
the water resources entrusted to them at statehood. I have worked as a 
Certified Public Accountant, a farmer and rancher, a state water 
master, the executive director of a water user organization, president 
of the Family Farm Alliance and, most recently, as Deputy Commissioner 
for the Bureau of Reclamation here in Washington, D.C. In all of my 
professional and personal experiences, I have steadfastly held myself 
to high moral and ethical standards; and if confirmed, will bring these 
qualities to the office of Assistant Secretary for Water and Science.
    Secretary Norton's goals at the Department of the Interior include 
protecting and enhancing the health and vitality of our Nation's many 
communities and their environment. She has many accomplishments through 
her 4Cs philosophy of communication, consultation, and cooperation, all 
in the service of conservation. I wholeheartedly subscribe to this 
philosophy. I have used it to resolve water issues in the Payette River 
Basin in Idaho as well as the many challenging issues during my current 
tenure as Deputy Commissioner of the Bureau of Reclamation.
    During the Klamath Basin crisis shortly after her arrival, 
Secretary Norton commissioned the development of a program designed to 
address water issues well in advance of crisis. Her Water 2025 
initiative, managed through the Bureau of Reclamation, has focused 
Federal resources on resolving water problems proactively in areas of 
the West where conflict can be predicted and often prevented. I believe 
in this initiative; and if confirmed, I will work with the Congress and 
this Committee to continue its implementation and communicate its 
successes.
    If confirmed, I will continue to work with this Committee and the 
Bureau of Reclamation in addressing financing for the modernization of 
aging water infrastructure, obtaining Congressional authorization for a 
rural water program, and preventing crises and conflict over water in 
the West through permanent authorization for Water 2025 grants and 
cooperative agreements. I also will work to assess and implement 
organizational and managerial improvements in the design, construction, 
rehabilitation, operation, and maintenance of Bureau of Reclamation 
water supply facilities in order to improve efficiencies and reduce 
costs. Our current Federal budgetary constraints will pose many 
challenges in the future; priorities must be set and adhered to in 
order to achieve success in these areas. But western communities, 
farmers and ranchers, tribes and States, and the environment all 
deserve a focused, efficient, and fiscally transparent Bureau of 
Reclamation. If confirmed, I intend to work diligently to continue our 
efforts to address these issues.
    If confirmed, I also will embrace the opportunity to work with the 
United States Geological Survey (USGS) in bringing sound science and 
information to decision makers and the public. The USGS is the premier 
natural resources science agency for this Nation, and I will work to 
protect the integrity of this role. I have always been an advocate for 
scientifically based decision making. Objective, credible, peer-
reviewed science is key to managing our natural resources in a balanced 
manner.
    Our Nation has always dealt with natural and man-made hazards 
either by advance preparation or managing the aftermaths. The USGS 
plays a critical role in measuring and assessing earthquakes and 
tsunamis, volcanic activity, landslides and floods, as well as 
communicating and mitigating the effects of such hazards through 
research and applied knowledge. This function has saved lives and 
property in the past, and it should continue to evolve and become even 
more effective in the future
    In closing, again, I am honored to sit before you today as 
President Bush's nominee for Assistant Secretary for Water and Science. 
If confirmed, I will work in a bipartisan and cooperative manner with 
this Committee, with the full Senate and House of Representatives, and 
with your constituents, just as I have with many of you and your staff 
during the past few years. I understand the importance of the Congress 
and the Constitutional roles and responsibilities of the Executive 
Branch. I also understand the expectation of the American people that 
the branches of their Federal Government should work together in 
bringing useful and valuable services to the public as efficiently and 
effectively as possible. I am committed to collaboratively searching 
out fair and balanced solutions to complex natural resource issues, and 
I believe these solutions should respect the States, private property 
rights, the environment, and the tribal trust responsibilities of the 
Department.
    It is also my commitment, if confirmed, to work with Secretary 
Norton as a part of her management team in overseeing the activities of 
the Bureau of Reclamation and the USGS, managing, conserving, and 
protecting the many resources entrusted to the Department of the 
Interior.
    Thank you for this opportunity to appear before you today, and I 
would be pleased to answer any questions you may have.

    The Chairman. Well, we're down to just a few minutes, so 
let me do this. First let me say to you, Mr. Weimer, I recall 
your past performance here and obviously I remember Manny 
Lujan, and you know he's doing quite well after having had a 
couple of minor heart attacks, and he has frequently told me 
what an important right-hand man you were, so I have nothing 
but great confidence in you.
    I think since we're going to be in a state of flux that I 
would like to ask you if you would agree now to put your 
statement in the record. If we do that, we'll accomplish that 
before we leave.
    Mr. Weimer. Absolutely.
    The Chairman. So your statement in its totality is in the 
record. So is yours.
    [The prepared statement of Mr. Weimer follows:]
    Prepared Statement of R. Thomas Weimer, Nominee to Be Assistant 
Secretary for Policy, Management and Budget, Department of the Interior
    Mr. Chairman, Senator Bingaman, and Members of the Committee, it is 
a privilege and great honor to appear before you today as the 
President's nominee to serve as Assistant Secretary for Policy, 
Management and Budget at the Department of the Interior. President Bush 
and Secretary Norton have paid me the highest compliment by 
recommending me for this position.
    By way of my background, I was born in Wyoming and raised in 
Colorado (which I still consider to be my home State); and I have lived 
and worked in several other western States. While I began my career as 
an engineer, since first moving to Washington over 20 years ago, I have 
worked principally on natural resource, energy, and science and 
technology policy issues. For over a decade, I worked for former 
Secretary of the Interior Manuel Lujan, Jr., first as a professional 
staff member and staff director on his committee staffs in the House of 
Representatives, and then as his Chief of Staff at the Interior 
Department. In that capacity, I was afforded the opportunity to observe 
all of the operations of the Interior Department and I learned to 
appreciate the immense breadth of responsibilities which Departmental 
executives must collectively administer in providing service to 
America's citizens. For the past four years, I have served as the 
Principal Deputy in the Department's Water and Science Office, 
providing management oversight and policy guidance to the Bureau of 
Reclamation and to the U.S. Geological Survey.
    During her tenure, Secretary Norton has led Interior with her 
vision of achieving healthy lands and waters, thriving communities, and 
a dynamic economy. Three themes underlie her efforts to accomplish 
these goals: partnered problem solving, an emphasis on balance, and 
management excellence. Secretary Norton has established a management 
framework which all of us on her team operate within, working to 
accomplish the many diverse missions of the Department and its eight 
bureaus. She has charged us with executing our responsibilities using 
collaborative and consultative processes with an emphasis on 
communicating with the Department's many stakeholders. I share the 
Secretary's vision and management style, and I feel that the two 
bureaus with which I have worked over the past four years have 
accomplished a great deal utilizing these principles.
    I am deeply honored that President Bush has nominated me for a 
position that, should the Senate confirm my nomination, will again 
afford me the opportunity to work on a wide range of Interior's 
activities in policy, management, and budget arenas that span the 
Department and its eight bureaus. In policy, we will continue to 
develop and implement programs to advance resource protection and use, 
enhance recreational opportunities, and better serve Interior's many 
communities--including those in Indian Country and in and in the 
Insular areas. In advancing the President's Management Agenda, we must 
place an emphasis on investments that will help Interior work smarter, 
more efficiently, and more effectively. We will work to improve our 
budget and performance integration, which lies at the heart of ensuring 
both the strategic allocation and efficient use of funds. We must 
continue to improve our financial performance to link planning and 
budgeting with performance results. We will work to improve our 
information technology (IT) environment by pursuing an E-government 
strategy to move from Bureau legacy systems to governmentwide and 
Departmental solutions. We must continue our efforts in the management 
of human capital as changing public needs, new technologies, and an 
aging workforce combine to create new business requirements. We will 
keep looking at competitive sourcing opportunities to evaluate business 
practices and develop more effective ways to deliver services. And of 
course, in the area of budgeting, we will be challenged to accomplish 
our mission using fiscal constraint. Identifying and funding those 
activities and programs linked to core Departmental responsibilities 
affords us the best way to continue to deliver our essential services.
    If confirmed, I will work in a bipartisan and cooperative manner 
with this committee and with all members of the Senate and House. My 
ten years of service on Committee staffs of the U.S. House of 
Representatives have given me a deep appreciation for the 
Constitutional roles and responsibilities of the Legislative Branch, 
and I respect the need for open dialogue with the Congress to 
facilitate fulfilling our responsibilities to the American people.
    If confirmed as Assistant Secretary for Policy, Management and 
Budget, it is my commitment to work with Secretary Norton and her 
management team to ensure the highest standards in stewardship for our 
lands, waters, and people.
    Thank you for this opportunity to appear before you. I would be 
pleased to try to answer any questions you might have.

    The Chairman. With that, I believe we're going to recess 
because we're going to be open, which is very different. I'll 
yield to Senator Craig for a moment or two and then we will 
depart and leave you here informally. You can meander around 
until a Senator comes.
    I have a series of questions which I'm going to submit for 
you to answer in writing to each of you. And with that, we will 
leave the hearing open pursuant to the discussion that I have 
had as to what rules apply.
    [Recess.]
    Senator Salazar. Let me just first say both to you, Mark 
and Tom, congratulations on your appointments. I know many 
people who know both of you and they have high accolades for 
your work, including someone whom you know, and that's Bennett 
Raley, who is a great friend and one of the best water people 
that I have ever known in the West. And he says you're the 
right persons for the jobs, so I intend to be voting for you 
and I expect that you're going to get good bipartisan support 
for your confirmation. And congratulations to your families as 
well and I look forward to working with you.
    Let me ask some questions of you. First of all, on some 
water issues that are very important to all of us in the 
Southwest and all of us, the seven States who share the 
Colorado River and who live by the compact that was negotiated 
by the seven States and ultimately approved by the Congress and 
signed by the President. I have significant concerns about what 
is happening with respect to the allocation of water that is 
really driven by the continuing outflows of water from Lake 
Powell that have caused a continuing decline of water. And I 
know that we don't control the climate in the Southwest and 
we've gone through one of the most severe droughts of our 
Nation's history in that part of the country.
    But I do believe that the amount of water that currently is 
being allowed to flow out from Lake Powell for the lower basin 
States is not the way that we ought to be going and that we 
ought to find a way of rolling that amount back. I understand 
at least when they last studied this issue a few months ago, 
the amount of water that we were actually releasing from Lake 
Powell was some 8.23 million acre feet. It seems to me that 
with the declines in the water levels at Lake Powell that what 
we ought to be doing with the Bureau of Reclamation, with the 
Department of the Interior, with the Secretary as the master of 
the Colorado River, is to roll that back to 7.5 million acre 
feet until we can restore balance and equilibrium.
    Now, I understand that what happened here is that the 
Secretary of the Interior decided to basically punt the 
decision for the later time and to have the States continue to 
try to work through that issue over the next several months. I 
would like your thoughts, Tom, as well as--especially from Tom 
as the Assistant--the nominee for Water and Science on how we 
might proceed on that Colorado River water allocation issue.
    Mr. Weimer. Actually, Senator, Mark is the nominee for 
Water and Science. I'm for Policy Management and Budget. I'm 
acting in the Water and Science job right now and I'd be happy 
to begin to answer your question and then perhaps Mark can as 
well.
    Senator Salazar. I would like both of you to respond.
    Mr. Weimer. Senator, as you correctly pointed out, the 
Secretary, in making her decision on the mid-year annual 
operating plan this year, took a number of things into 
consideration. Certainly the upper basin I think was 
disappointed that she was unwilling to lower the amount of 
water going out of Lake Powell. But in looking at the actual 
hydrological facts of this year, where we had, as you're well 
aware, in the upper basin a better than normal year. Projected 
increases in Lake Powell, at the time she made her decision, 
were that it was going to come up 45 feet, and in fact it is 
now projected to come up well over 50, almost 60 feet.
    So her decisions were narrowly drawn on the facts at that 
time, but her decision had four parts. The first part was not 
to change the 8.23 this year, but the second part of her 
decision was to assert her authority to do that, because you're 
probably well aware that there are those, particularly in the 
lower basin, that have said that she does not have that 
authority, but she disagreed with that and asserted that she 
does.
    The third part of her decision then was to direct 
Reclamation in the development of next year's annual operating 
plan to include another mid-year review. So I think when you 
take parts two and three of her decision together, you could 
see she clearly signaled that she is willing to, if necessary, 
and if the hydrology changes, to make a decision to lower the 
8.23.
    In the last part of her decision, and perhaps as important 
as the first three parts, was her direction to Reclamation to 
over the next 30 months develop shortage criteria and 
conjunctive management of the two lakes, Mead and Powell. And 
that process has just begun. It will be a cooperative process 
with the seven basin States. And I think it's really--we look 
to that process as being the one that we hope will allow us to 
end up with a regime for operating the river in drought 
situations, which can take into account many of the 
considerations you laid out in your remarks.
    Senator Salazar. So, Tom, the essence of where you believe 
Interior then will be going with the shortage criteria will be 
to engage in this process that will take us over a 30-month 
period to the point where the Secretary can then analyze a set 
of criteria with respect to how to handle shortages on the 
Colorado?
    Mr. Weimer. That's correct. And it's analogous to the 
interim surplus guideline process that Secretary Babbitt had 
commissioned when he was there--in a process way--but so that's 
what Secretary Norton is looking at, that's correct.
    Senator Salazar. Let me--I think somebody just said I had a 
minute, so let me find out. I have a series of five stacked 
votes on the floor, so that's what's causing all this, but I 
wanted to make sure that I had an opportunity to spend a little 
bit of time with you.
    This obviously is an important issue for me and it's 
something that I want to work with both of you on. And I would 
ask both of you to keep my office involved as you move forward 
with the development of the criteria and as you work with the 
seven states.
    There are many other issues that will involve both you, 
Tom, and Mark that are important to me in Colorado that we need 
to make sure we don't look sight of. And let me just name them, 
you don't have to respond to them for me right now. But first 
the Upper Colorado Endangered Fish Recovery Program, that's 
been a major success relative to how we have dealt with 
endangered species in the West that's allowed development to 
take place, as well as to recovery efforts. Every year we get 
into a funding issue with respect to the recovery program. I 
want to work with you to continue to make sure that that 
program continues to be a successful program.
    Next, the South Platte River Recovery Program. We have the 
recovery agreements in place, but that obviously still has a 
long ways to go with respect to its implementation, and it's 
going to be important that you know that from a Colorado 
perspective that remains a very important initiative of ours, 
because unless we're able to make sure that that implementation 
plan actually works, we could create havoc for water users in 
my state as well as in the other states. So I would ask you to 
continue to put a focus on that.
    Fourth, the Arkansas River, a whole set of issues on the 
Arkansas River, including the Preferred Storage Options 
Project, which is coming forth from the water conservancy 
districts. And finally the Arkansas River Conduit, on which 
Senator Allard and I are having a meeting down in Rocky Ford on 
Saturday afternoon. And I look forward to working with Interior 
on all of those issues.
    And the last thing, and I just want a simple yes from both 
of you on this, this committee voted out an energy bill that 
came out 23 to 1, we passed it in the Senate 85 to 12, it 
showed what can happen when you have a group of people that 
come together in a bipartisan spirit. It was a great staff that 
allowed that to happen and helped us make that happen. But I 
want your commitment that you'll work with Democrats and 
Republicans alike and treat them equal in terms of your 
outreach and your work with them. Can I just have a yes from 
both of you on that?
    Mr. Weimer. Yes.
    Mr. Limbaugh. Yes.
    Senator Salazar. Thank you very much and best of luck to 
you.
    Mr. Weimer. Thank you, Senator.
    [Whereupon, at 11:30 a.m., the hearing was adjourned.]

                                APPENDIX

                   Responses to Additional Questions

                              ----------                              

     Responses of Mark Limbaugh to Questions From Senator Domenici

                          AGING INFRASTRUCTURE

    Question 1. As a former farmer and Watermaster of Idaho's Payette 
River Basin, as well as in your current capacity as Deputy Commissioner 
of the Bureau of Reclamation, you have had the unique experience of 
observing the Bureau's operations from a variety of different 
perspectives.
    Based on these experiences, what is the extent of the aging 
infrastructure problem?
    Answer. Reclamation's infrastructure has been built over the past 
100 years, and the median age of a typical facility is about 50 years 
old. In my experience in the Payette River Basin, I have observed 
Reclamation infrastructure that, although generally well preserved due 
to preventive maintenance policies, is in need of modernization and 
rehabilitation in order to meet the water needs of today. For instance, 
opportunities exist for the addition of remote operation and automation 
equipment that can both save money and water in the operation and 
management of aging water infrastructure. I have also noted that 
extraordinary maintenance has, at some facilities, become much more 
expensive due to additional precautions that need to be taken to be in 
compliance with environmental laws and regulations. At one facility, 
the cost of simply repainting the inside of a penstock was estimated to 
be significantly higher than expected due to the prior use of red lead-
based paint, which had to be removed, placed in barrels, and hauled to 
an environmental landfill for processing before repainting could occur. 
In this particular case, if these costs were treated as an annual O&M 
expense, the District would have to double its annual water charges to 
its farmers in one year. These are but a few examples of the challenges 
our aging Federal infrastructure will present in the future to water 
contractors and Reclamation.
    Question 2. How can we best address the growing need to 
rehabilitate the Bureau's aging infrastructure?
    Answer. First, we must ensure that the condition of Reclamation's 
water and power infrastructure is continually reviewed and reliability 
routinely assessed. For those water and power facilities where 
Reclamation is directly responsible for OM&R, Reclamation should 
evaluate the need to continue with preventive maintenance and repair 
activities or alternatively evaluate the need to undertake major 
rehabilitation and replacement efforts. When water and power users 
share in the OM&R costs for such rehabilitation and replacement 
activities, Reclamation should involve the users well in advance 
regarding issues surrounding the need, timing, costs, and funding 
arrangements specific to the proposed work activity.
    I will ensure that Reclamation continues its proactive approach to 
facility reviews, condition assessments, preventive maintenance, and 
efficiency modifications, with a view toward assuring the reliability 
and viability of its facilities.
    When a District is called upon to fund these major projects as 
OM&R, their reserve funds typically may not be sufficient to meet the 
total amount required for major rehabilitations or replacements, and a 
long-term loan might be necessary. Due to the Federal ownership of 
these facilities and with little collateral to borrow against, these 
loans could be difficult for a District to obtain. Reclamation is 
currently analyzing other innovative financing mechanisms, such as a 
loan guarantee program, that could help with long-term financing for 
Districts funding major rehabilitations or replacements at Reclamation 
facilities.

                          WATER TECHNOLOGY R&D

    Question 3. Recent drought and population growth in the western 
U.S. requires that we make more efficient use of water and develop 
technologies to make use of previously impaired or unusable water. 
During the 1960's, the federal government funded extensive research in 
water technology which resulted in new technologies such as reverse 
osmosis.
    I believe that the federal government should renew its investment 
in water treatment technology. Toward this end, I have funded 
construction of a Tularosa Basin Desalination Research and Development 
center in New Mexico. Also, I have funded the development of new 
technologies through the Energy and Water Development Appropriations 
Bill.
    What do you believe is the federal government's role in water 
technology research?
    Answer. I believe that determining the appropriate Federal role in 
water technology research requires high level interagency consultation 
and coordination. Currently, under the leadership of the Executive 
Office of the President, the Administration is evaluating federal 
research and development efforts in desalination in order to clearly 
establish long-term goals and ensure that our efforts are carried out 
in accordance with the Administration's Research and Development 
Investment Criteria, and that these efforts represent the best 
investment of federal resources.
    Question 4. As you are aware, the authority for the BOR's Water 
Desalination Research and Development Act of 1996 expires this year. Do 
you believe that this program should be reauthorized and with what 
changes?
    Answer. Yes, the Water Desalination Act of 1996 should be 
reauthorized. The Act allows Reclamation to participate in external 
desalination research. I believe that this research is important and 
while I am unaware of any substantive changes needed, I would be happy 
to work with Congress to develop appropriate legislation.

                        RURAL WATER LEGISLATION

    Question 5. As you are aware, my staff has been working with you 
and the minority staff to develop legislation to aid small and rural 
communities to meet their often extensive water needs. Many western 
communities rely on aquifers for water that will be depleted within the 
next decade. This fact makes the situation especially desperate.
    There are also rural water programs within several other agencies. 
However, they are not as broad is scope and not of the scale that would 
allow many communities to make use of them. Furthermore, it is my 
belief that the BOR has the technical expertise to undertake such a 
project.
    Is a rural water program a new authority that you feel would be 
appropriate for the BOR to undertake?
    Answer. Yes, I believe Reclamation should have authority to manage 
a comprehensive rural water program. Currently, rural water projects 
are authorized on an ad hoc basis without much agency involvement in 
the planning and design phases. This has created many problems as 
Reclamation begins its process of managing the construction and 
implementation phases of these individually authorized projects. In 
many cases, this has included the need to secure funding for the 
operation, maintenance and replacement (O,M&R) of these projects into 
the future since, for some projects, the O,M&R costs have fallen to the 
Federal government to pay.
    I believe the Secretary should have authority to set forth 
eligibility criteria that should be met by future projects during the 
initial planning process, both at the appraisal and feasibility levels, 
before they move forward to design and construction phases. Early 
Federal involvement in planning and designing rural water delivery 
systems can save money by utilizing Reclamation's previous experience 
in constructing water projects and operating and maintaining water 
systems across the West. Projects recommended as feasible for 
construction under these criteria can ensure the most efficient and 
effective use of our limited Federal dollars, and would prioritize the 
best projects for funding construction.
    Question 6. What form do you see this program taking? Do you feel 
that the loan guarantee program in the bill is a viable mechanism to 
aid rural communities?
    Answer. I see this program setting criteria for both appraisal and 
feasibility analysis in planning and designing future rural water 
projects. Involving Reclamation technical experts ``up front'' in the 
planning and design phase can save money in the construction process. 
Also, determining the appropriate level of local cost share for 
repayment of construction costs and 100% of the project O,M&R at the 
local level will assess a community's capability to pay such costs in 
the long run, ensuring a sustainable, long-term project that will meet 
the rural community's needs.
    While the Administration continues to assess the benefits and 
financial impacts of a loan guarantee program for Reclamation, there 
could be advantages to using Federal guarantees that would be helpful 
in developing rural water projects. First, a loan guarantee program 
could be used to finance part of the local portion of project 
construction, maximizing a community's capability to cost share a 
portion of the project costs. Second, using private financing through 
loan guarantees can help leverage limited Federal dollars in funding 
construction of such projects, because only a small portion of the 
guaranteed loan amount is backed by appropriated funds in order to 
cover expected losses in the future. Finally, the success of the Rural 
Utilities Service loan guarantee program within the USDA has shown 
these financing tools can work and are generally accepted by both 
municipalities and private banking institutions.
    Question 7. How do you plan to coordinate with other agencies that 
have rural water programs to ensure that the federal government does 
not duplicate efforts?
    Answer. Authorizing a formal rural water program within Reclamation 
would enable the agency to coordinate with other rural water programs 
throughout government. Currently, Reclamation cannot easily coordinate 
with these other agencies due to the lack of formal program 
authorities. Coordination of Federal rural water programs would be a 
high priority of Reclamation's in implementing any formal program in 
the future.
    Question 8. The USGS maintains numerous river and stream gauges 
throughout the United States that are relied on to determine compliance 
with interstate compacts and treaty obligations. However, some of these 
gauges have fallen into a state of disrepair, calling into question 
their accuracy. An example of this is when the Red Bluff gauge, which 
we rely on to determine if New Mexico is meeting its compact deliveries 
to Texas, was washed-out last year. That instance has called into 
question if NM was in compliance with the Pecos River Compact last 
year.
    If confirmed, what will you do to ensure that our most important 
gauges are in good repair so that they provide accurate data?
    Answer. As a former water manager, I recognize the importance and 
value of reliable streamflow information. If confirmed, I will continue 
to support the USGS National Streamflow Information Program (NSIP) 
within the Administration's priorities and available resources.
    Question 9. What will you do to ensure that an event such as the 
one at Red Bluff does not occur again?
    Answer. The USGS NSIP plan is designed to provide a stable, 
modernized streamgaging network that addresses core Federal and 
cooperator needs. I believe in this program and, while unforeseen 
problems may arise in the future, I will work with the USGS to maintain 
the integrity of the stream gage system.

                          WESTERN WATER SUPPLY

    Question 10. The Bureau of Reclamation was established in 1902 to 
help develop and settle the arid West through irrigation and multi-
purpose projects. Over 100 years later, the West is largely settled and 
its population is booming. Agriculture, urban, and environmental needs 
now compete for a limited and sometimes over-allocated water supply.
    Several participants in the Committee's Water Conference in April 
said that these changes are placing intense pressure on existing 
Western water supplies, construction of new water storage facilities 
should be a key component of federal water resources policy.
    Do you agree that expansion of existing water supplies should be an 
important component of any strategy for meeting the long-term water 
needs of the West?
    Answer. I believe that expanding existing water supplies should be 
a component of long-term water strategies to meet future Western needs. 
This can be done in a number of ways.
    Question 11. If so, what should be the role of the federal 
government in the development of new supplies?
    Answer. The Federal role should include at least three strategies. 
First, expansion of existing supplies by helping to stretch water 
supplies to meet unmet needs, as well as current uses, can be 
accomplished through improvements in water conservation, water use 
efficiencies, and the use of water markets. The implementation of new 
water management technology, such as automation, canal lining, and 
other infrastructure improvements can help accomplish this goal. 
Second, researching new, more cost-effective water treatment 
technologies could eventually help add to future usable water supplies 
in areas where brackish groundwater exists but cannot be utilized 
economically today. Finally, new water storage capacity may be needed 
in some areas in order to meet emerging needs for water in the long-
term. An appropriate Federal role in these efforts could include 
planning and technical assistance, but must include a major role for 
non-Federal partners in developing and financing such projects.
    Question 12. What are the primary institutional, financial, and 
regulatory impediments to development of new water supplies, and how 
can they be overcome?
    Answer. The States have the authority to allocate waters within 
their boundaries. Water rights would have to be issued in priority with 
state allocation systems by the States themselves for any new storage 
projects. A regulatory hurdle could also include environmental 
permitting issues at the local, State, and Federal levels. Funding 
limitations at the Federal, State and local level could impede 
financing such projects. In attempting to overcome these impediments, 
it would be prudent to implement strategic goals one step at a time, 
looking to conservation, efficiencies, and markets, new technology, and 
other mechanisms that can address water supply problems today, while 
longer-term strategies for developing new water supplies are studied, 
environmental impacts are identified, and financial impediments are 
addressed.
    Question 13. What is the Administration's position on alternative 
funding mechanisms such as a loan guarantee program or a water trust 
fund?
    Answer. The Administration is actively analyzing the possible 
benefits and financial impacts to Reclamation of a loan guarantee 
program, but has not taken an official position as of yet. Water trust 
funds have not yet been discussed in detail within the Administration 
as a viable alternative funding mechanism.

                          LOWER COLORADO RIVER

    Question 14. The Lower Colorado River basin states of Arizona, 
Nevada and California are committed to a strategy to minimize over-
deliveries of water to Mexico and thereby maximize preservation of the 
storage capacity in Lake Mead. The elements of this strategy include:

  <bullet> Lining of the All American Canal and construction of 
        regulatory storage reservoirs adjacent to the All American 
        canal;
  <bullet> Removal of silt from Laguna Dam;
  <bullet> Placing the Yuma Desalting Plant into full-capacity 
        operation as soon as possible;
  <bullet> Reinstituting studies and discussions looking toward 
        augmentation of the water supply in the full Colorado River 
        Basin.

    What do you believe the Administration's position should be on 
preserving storage in Lake Mead by eliminating or minimizing over-
deliveries of water to Mexico?
    Answer. I believe the Bureau of Reclamation should continue to work 
hard to ensure that water deliveries to all water users in the Lower 
Basin are made as efficiently as possible. I also believe Reclamation 
should minimize over-delivery to Mexico. With regard to losses that 
occur because of floods on Lower Basin tributaries, Reclamation and the 
U.S. Army Corps of Engineers have coordinated water supply and flood 
control operations to ensure capture of most of the flood water. 
Reclamation estimates that Lake Mead is nearly 30 feet higher now than 
projected in October 2004 because of these coordinated operations. 
Furthermore, Reclamation is working with Lower Basin water users to 
identify options for developing additional regulatory storage 
facilities that could conserve up to 40,000-50,000 acre feet of water 
annually that would otherwise constitute over-deliveries to Mexico.
    Question 15. What is the Administration's position on each of these 
four elements?
    Answer. In regard to lining the All American Canal, the Imperial 
Irrigation District, San Diego County Water Authority and Reclamation 
are continuing work on designing the canal features. It is expected 
that construction will begin in early 2006.
    Reclamation has received several letters from various organizations 
within the United States and Mexico alleging violations of law 
regarding the proposed lining project. Included among the alleged 
violations are issues associated with potential impacts of the canal 
lining project within the Republic of Mexico. Reclamation and the 
Department of the Interior are working with the State Department and 
the International Boundary and Water Commission regarding these issues.
    In regard to construction of regulatory storage reservoirs adjacent 
to the All American Canal, Reclamation is working on a Preliminary 
Study of the Lower Colorado River Water Storage Alternatives. These 
alternatives include reservoirs along Drop 2 of the All American Canal, 
Expansion of the Laguna Reservoir, and Rehabilitation of Senator Wash 
Reservoir. Among other actions, further feasibility level analysis 
should be completed before construction of the reservoirs can begin.
    The Preliminary Study of the Lower Colorado River Water Storage 
Alternatives included the removal of silt behind Laguna Dam as one of 
the three final alternatives for obtaining additional regulatory 
storage on the Lower Colorado River. Additional analysis and compliance 
review must be completed before the project could begin.
    Reclamation is addressing the Yuma Desalting Plant issue in three 
ways. First, while the Plant is being maintained in a ready-reserve 
status, design deficiencies that must be corrected prior to Plant 
operation are being resolved to the extent funding allows. Second, 
Reclamation plans a demonstration program to evaluate the viability of 
Colorado River water users voluntarily forbearing the use of water by 
fallowing land in exchange for cash payment. The water saved by 
fallowing could serve as a replacement supply for the bypassed drain 
water. Third, Reclamation plans to initiate a public planning process 
to identify, analyze, and evaluate alternative ways of replacing or 
recovering bypassed flows that are required to meet water quality 
standards under the Mexico treaty. Our current approach, then, is to 
improve the readiness of the Plant to operate while pursuing options to 
replace or recover bypassed drain water that may be available at a 
lower cost and may avoid negative environmental impacts.
    Finally, augmentation of the water supply of the Colorado River 
Basin is a topic the Department is willing to discuss with the Basin 
States and others.

                               WATER 2025

    Question 16. In 2003, the Bureau of Reclamation administratively 
created its Water 2025 grant program. The House Energy and Water 
Appropriations Subcommittee, however, has routinely zeroed out funding 
for this program, citing a lack of Congressional authorization. In my 
role as Chairman of the Senate Energy and Water Appropriations 
Subcommittee, I have added an authorization in the appropriations bill.
    Do you believe that a Congressional authorization for Water 2025 is 
not necessary? If so, how do you plan to respond to the House attempts 
to kill the program's funding?
    Answer. The FY 2004 and FY 2005 appropriations acts provided 
specific language that was a great help in implementing the grant 
program. Language included in the Senate-passed version of the FY 2006 
Energy & Water Appropriations bill would enable Reclamation to continue 
effective implementation of the grant program in the future.
    I am advised that specific authorization for grants and cooperative 
agreements through Reclamation for Water 2025 is necessary. The House 
has been highly supportive of Water 2025 the last several years-not 
just in the final appropriations bill, but in the House-passed versions 
of the FY 2004 and FY 2005 Appropriations. In the FY 2006 House-passed 
version of Energy & Water, the House expressed its continued support 
for Water 2025, but provided no funding-citing the lack of a permanent 
authorization. In response, the Administration sent a Statement of 
Administration Position to the House expressing its support for 
continued funding and authorization for the Water 2025 program. The 
Senate-passed version of the FY 2006 Energy & Water Appropriations bill 
provides $20 million for the program.
    Question 17. If you do believe Congressional authorization is 
needed, will you work with us to accomplish that?
    Answer. Yes, I will work with you on securing permanent authority.

                     TITLE XVI RECYCLING AND REUSE

    Question 18. Every year, Congress supports the authorization of new 
Title XVI recycling and reuse projects, despite the Administration's 
stated objections to the program. Last Congress, Commissioner Keys 
appeared before this Committee and testified that the program has a 15-
year funding backlog.
    As a result, Senate staff has been working with their counterparts 
in the House to address the Title XVI program. It is our hope to 
introduce legislation this Congress to reform the program.
    What is your position on reforming or revamping the Title XVI 
program?
    Answer. I believe that the Title XVI Program has successfully 
demonstrated that water reclamation and reuse can help increase both 
the availability and reliability of local water supplies in the Western 
states. Water treatment technology such as desalination is an effective 
way to support water recycling and reuse in the West. I would be happy 
to work with Congress on the Title XVI Program, while not diminishing 
Reclamation's core mission of meeting its contractual commitments of 
delivering water and power to Reclamation customers.
    Question 19. What is the appropriate role for the Bureau in M&I 
water supply?
    Answer. Reclamation's appropriate role in M&I water supply is 
first, to meet the explicit M&I components of individual Acts of 
Congress authorizing Reclamation projects and, second, to manage water 
storage and delivery in large basins such as the Colorado River in a 
manner consistent with State water law, multi-State agreements, and 
other legal obligations where ultimate water users are sometimes 
municipal and industrial.
    Question 20. Will you commit to work with Staff as we explore 
options on Title XVI?
    Answer. Yes.

              MIDDLE RIO GRANDE ESA COLLABORATIVE PROGRAM

    Question 21. Several years ago, I established the Middle Rio Grande 
Endangered Species Collaborative Program to help protect the 
Southwestern Willow Flycatcher and Rio Grande Silvery Minnow. I have 
been working with BOR and numerous other stakeholders to develop 
legislation that would articulate roles for both the Corps of Engineers 
and BOR.
    Despite good run-off this year, water in storage in the Rio Grande 
Basin is still far below capacity. Meeting the Biological Opinion 
requires providing water to meet minimum flow requirements.
    Do you feel comfortable with the role given to the Bureau of 
Reclamation in the proposed legislation to provide water to meet the 
Biological Opinion flow requirements?
    Answer. While I realize legislation may not yet be in its final 
form, I am confident that Reclamation and I will be able to work with 
your Committee and the Congress to develop a program that will succeed 
in meeting ESA requirements under the Biological Opinion. We look 
forward to the opportunity to cooperate with the U.S. Army Corps of 
Engineers and other agencies in continuing the Collaborative Program 
and Reclamation's active participation in Program activities, including 
providing water to meet Biological Opinion flow requirements.
    Question 22. Where does the BOR anticipate it will get water from 
in future drought years in order to meet regulatory requirements?
    Answer. We anticipate acquiring water from multiple short-and long-
term sources to meet the flow requirements in the Biological Opinion. 
We will continue to enter into short-term water leases with willing San 
Juan-Chama Project contractors to provide water to benefit endangered 
species. To meet long-term needs, we will work with the State of New 
Mexico and others to evaluate potential sources of water, develop a 
long-term water acquisition plan, and implement it. Water banking and 
other potential sources would be considered.

                           MINNOW SANCTUARIES

    Question 23. The Reasonable and Prudent Alternatives specified in 
the 2003 Fish and Wildlife Service's Biological Opinion on the Rio 
Grande Silvery Minnow required the construction of two minnow refugia. 
In order to comply with this mandate, I have been working with the BOR 
Albuquerque Area Office to construct a minnow sanctuary.
    What is the status of the pre-construction activities underway?
    Answer. Design and environmental compliance activities are 
continuing on schedule. We will be ready to begin construction in 
October 2005.
    Question 24. How long will it take to begin construction and 
ultimately complete the project?
    Answer. Contingent on FY 2006 appropriations, we are prepared to 
begin construction in October 2005. Construction should be completed in 
the summer of 2006.
    Question 25. Do I have your assurance that you will make 
construction of the refugia a priority?
    Answer. Yes.

       MIDDLE RIO GRANDE PUEBLO WATER DELIVERY AND INFRASTRUCTURE

    Question 26. Pursuant to a 1982 agreement, the BOR is responsible 
for delivering water to meet ``prior and paramount'' rights of the 6 
Middle Rio Grande Pueblos. The BIA was also given authority to ensure 
that these obligations were met. The six Pueblos rely upon the delivery 
of the water they hold rights to for the irrigation of over 8,000 acres 
of land. The Pueblos question if the BOR is delivering water consistent 
with the 1982 agreement and if the BIA is fulfilling its trust 
responsibility.
    Furthermore, the Pueblos rely on the BOR for irrigation 
infrastructure which has fallen into a state of disrepair and needs to 
be upgraded.
    How does your department plan to resolve the conflict that has 
arisen between the BIA, BOR and Pueblos?
    Answer. The Department has formed a team of engineers from 
Reclamation, BIA, and USGS, who are working with the Pueblos regarding 
some of the calculations and interpretation of the 1981 agreement. 
Although BIA is the agency responsible for supporting infrastructure on 
the Pueblo lands, Reclamation has provided and will continue to provide 
technical assistance to the Pueblos in supporting their infrastructure. 
It is my intention to ensure that these complimentary roles continue to 
be honored within the Department.
    Question 27. How does the BOR plan to upgrade and maintain the 
Pueblo water delivery infrastructure? Is funding available for these 
purposes through Water 2025 or other grants? How do you plan to meet 
these trust responsibilities?
    Answer. There are two types of facilities on Pueblo lands: Middle 
Rio Grande Project facilities that deliver water to a Pueblo as a whole 
and those facilities which are specifically tribal that deliver water 
to individual farms. While Reclamation has no authority to rehabilitate 
Pueblo ditches, Reclamation, through such programs as Water 2025, can 
work on Reclamation Projects that lie on Pueblo lands. BIA has 
responsibility and authority to work on non-Reclamation Project systems 
on Pueblo lands. Portions of the six Middle Rio Grande Pueblos 
irrigation infrastructure fall within the boundaries of the Middle Rio 
Grande Project and can be served by Reclamation. The Middle Rio Grande 
Conservancy District has received about $3 million under Water 2025 for 
water conservation and infrastructure improvements. This funding can be 
used throughout the District, including those portions of the six 
Middle Rio Grande Pueblos facilities within the Middle Rio Grande 
Project. Reclamation has funded a variety of small infrastructure 
improvement projects for Pueblos in New Mexico through its Native 
American Program. This Program does not have the authority to cover 
significant rehabilitation projects of Pueblo facilities. If confirmed, 
I will ask Reclamation to continue to examine authorities and funding 
availability to upgrade Pueblo facilities.

                        ANIMAS-LA PLATA PROJECT

    Question 28. The Animas-La Plata project will provide water to 
communities of Northwestern New Mexico and Colorado and settles the 
water rights claims of the Ute Mountain and Southern Ute tribes. 
Despite past claims of mismanagement and poor planning and oversight, 
the A-LP project is now proceeding at an acceptable rate.
    What precautions are being taken to ensure that there are not 
further cost overruns with the project?
    Answer. The ALP Construction Office is responsible for all matters 
pertaining to the construction of the project. This office is managed 
by a Project Construction Engineer who reports directly to the Regional 
Director of the Upper Colorado Region in Salt Lake City, Utah. The 
construction office continually evaluates ways to reduce costs while 
maintaining the project features. Cost tracking procedures implemented 
in 2004 now relate all project costs to the construction cost estimate 
(indexed for inflation) for early detection of problems. This cost 
information is shared with the Project Sponsors on a monthly basis. 
Finally, we have refined and streamlined reporting within Reclamation 
for the ALP.
    Question 29. Will project be completed on budget even with 
increased construction costs?
    Answer. Reclamation believes the project can be completed within 
the 2003 construction cost estimate (indexed for inflation) and is 
working diligently to make that happen. The recent increases seen 
nationally in the construction industry for fuel, cement, and steel 
have been felt at ALP. However, most of the large contracts have now 
been awarded and are fixed price contracts. Currently the project is 
nearly 25% complete and is on track within the indexed construction 
cost estimate.
    Question 30. How is the BOR addressing recent environmental 
challenges?
    Answer. Funding for the completion of the cultural and 
environmental mitigation features of the project has been given a high 
priority within the ALP project budget. Although construction of 
project facilities has been faced with many environmental challenges, 
ranging from controlling extreme flood events to protection of nesting 
golden eagles, these challenges have been resolved in a timely fashion. 
All environmental compliance and mitigation obligations are currently 
either being met or are on schedule to be completed concurrent with 
project facility construction.

                                TULAROSA

    Question 31. Recent drought and population growth in the western 
U.S. requires that we make more efficient use of water and develop 
technologies to make use of previously impaired or unusable water. 
During the 1960's, the federal government funded extensive research in 
water technology which resulted new technologies such as reverse 
osmosis.
    I believe that the federal government should renew its investment 
in water treatment technology. Toward this end, I have funded 
construction of a Tularosa Basin Desalination Research and Development 
center in New Mexico. Also, I have funded the development of new 
technologies through the Energy and Water Development Appropriations 
Bill.
    How is construction of the Tularosa facility proceeding?
    Answer. Construction of Tularosa is moving forward with Schedule 4 
of the contract to be awarded in early August. Schedule 4 covers the 
construction and equipping of the central research facility, a 16,000 
square foot building. The project is on track for completion in FY 
2006. Reclamation is currently developing a strategic plan which will 
be the basis for operating the research facility. Using this plan, we 
will competitively select a vendor to operate and maintain the facility 
under the direction of Reclamation. Also, the Office of Naval 
Research's Expeditionary Unit Water Purification (EUWP) system is 
currently being tested at the site by teams of Reclamation operators.

                           THE CALFED PROGRAM

    Question 32. Last year, Congress enacted the long-awaited 
authorization for the CALFED program. Part of the urgency was because 
without federal authorization, the state-created CALFED Authority would 
dissolve. However, problems with state funding have led to speculation 
that California will abandon the program.
    What is the status of California's participation in the CALFED 
program?
    Answer. The State of California continues to be an active partner 
in the CALFED program. The recently passed 2005-2006 State budget 
includes $145 million for CALFED related activities. At the request of 
the Governor, the program is currently in the process of an internal 
review. This review will look at expenditures to date, future budget 
requirements, project prioritization, and provide an evaluation of the 
existing CALFED program structure. The purpose of the internal review 
is to assess the effectiveness of the program to date, identify 
potential areas of improvement, and set the course for efficient 
program implementation of the highest priority actions. Although future 
funding for the program is a serious challenge, the likely increase in 
Federal funds for the program combined with new sources of revenue 
being pursued by the State should be sufficient to make considerable 
progress toward the implementation of the highest priority actions.
    Question 33. What is the status of the federal implementation of 
the CALFED program?
    Answer. The federal implementation of the activities outlined in 
the CALFED Record of Decision continues to be a high priority. The 
recently enacted legislation reauthorizing federal participation in the 
CALFED program provides a framework for federal implementation of the 
ROD and also requires that several reports be submitted to Congress on 
various aspects of the program. The federal agencies are committed to 
working with the State to follow this framework and to provide Congress 
the reports called for in the legislation. Specific priority activities 
include pelagic fish studies and habitat restoration projects to 
address the ecosystem in the Delta, ongoing water storage feasibility 
studies and the South Delta Improvement Plan to address critical water 
supply needs dependent on the Delta, aggressive drainage management 
measures to improve the quality of water that flows into the Delta, and 
a levee risk assessment initiated to identify the most critical areas 
in need repair to ensure the Delta is protected from serious flood 
damage.

                                DROUGHT

    Question 34. The Southwestern United States has been experiencing 
drought conditions since 2000. the Pacific Northwest is also experience 
significant water supply shortages.
    What is the status of the Department of the Interior's efforts to 
develop a voluntary protocol among the Colorado River basin states to 
deal with water shortages?
    Answer. Reclamation published a Federal Register notice on June 15, 
2005 soliciting comments from the public on the development of 
operational and management strategies for Lake Powell and Lake Mead. 
Two public discussion meetings are scheduled for late July. It is the 
Department's intent to have operational guidelines for Reclamation to 
apply in its annual operations by December 2007.
    Representatives from the seven Colorado River Basin States have 
been meeting regularly since March 2004 with the goal of developing 
consensus recommendations on the operation of the Colorado River 
reservoirs under drought and low reservoir conditions. At the request 
of the States, the Department and Reclamation have been participating 
in some of these meetings. Reclamation has been providing technical 
support to the States, performing river simulation modeling to analyze 
the various operating strategies developed by the States. Given recent 
discussions, the Department remains hopeful that the Basin States will 
advance a consensus recommendation within the next few months.
    Question 35. What is the extent of the Bureau's involvement in on 
the Columbia and Snake Rivers and how, if at all, will that be impacted 
by Judge Redden's recent decision to allow more spills and higher flows 
this summer?
    Answer. Reclamation operates 31 projects in the Columbia River 
Basin with over 40 dams. Two Reclamation dams with power generation 
capacity, Grand Coulee Dam on the mainstem Columbia River in Washington 
State, and Hungry Horse Dam on the South Fork Flathead River in western 
Montana, were included with 12 U.S. Army Corps of Engineers' (USACE) 
dams in the consultation resulting in the 2004 NOAA Fisheries 
Biological Opinion on the Federal Columbia River Power System (FCRPS). 
Other Reclamation projects were consulted on separately, either in the 
Upper Snake River Biological Opinion (11 projects and over 20 dams) or 
in other individual Biological Opinions.
    Environmental plaintiffs requested a Preliminary Injunction (PI) 
wherein the USACE and Reclamation would increase both spill and flows 
in the lower Columbia and Snake Rivers. Judge Redden granted the 
plaintiffs' request for increased summer spill for juvenile fish 
passage at five USACE projects in the lower Snake and Columbia Rivers. 
This decision does not directly affect the operation of any Reclamation 
project in the Basin. Judge Redden denied the plaintiffs' requests to 
require more flow in the river which could have impacted operations at 
Reclamation's Grand Coulee, Hungry Horse, and Upper Snake River 
Projects.

     Responses of Mark Limbaugh to Questions From Senator Bingaman

    Question 36a. This committee has been working for some time on 
developing a national energy policy-where we hope to commit significant 
resources to address our future energy supply challenges. I think we 
also need a comprehensive strategy to address our future water supply 
challenges. Both USGS and Reclamation have important roles to play in 
this effort. I was therefore disappointed with the President's 2006 
budget request which calls for a 6.7% cut in Reclamation's budget and a 
3.3% cut in USGS's water program.
    What do you think should be the focus of the federal government's 
strategy to help our nation meet its future water supply challenges?
    Answer. I believe the Federal government should focus on practical, 
proactive means of providing certainty for water users in the West 
through consultation, collaboration, and communication for the benefit 
of water conservation. This must occur between the Federal government 
and the States, Tribes, local communities, and water users, as well as 
among the Federal agencies. Current examples of this focus include 
Reclamation's efforts to help the Colorado river Basin States, 
including New Mexico, develop criteria to be used in preparing for 
future shortages in the Basin, as well as the Upper Colorado and San 
Juan endangered species recovery programs and the Multi-species 
Conservation Program, both partnerships among federal agencies, the 
States, the public, and water users, committing resources and ingenuity 
in meeting Endangered Species Act requirements while providing 
certainty to water users that their current and future needs can be 
met. Federal strategies should also include a focus on preparing our 
aging Federal water infrastructure for 21st Century challenges, and 
facilitating the use of new technologies to improve the management, 
conservation, and supply of water for the emerging needs of a healthy 
environment and a growing Western economy. I am proud that this has 
become Reclamation's focus during the past four years and I look 
forward to learning more about how the Geological Survey embraces this 
same focus.
    Question 36b. Will you be an advocate within the Administration to 
supply the funding needed to implement that strategy?
    Answer. Yes, while working closely with my Administration 
colleagues.
    Question 37a. One area critical to New Mexico's ability to 
effectively manage its water resources is the resolution of Indian 
water rights claims. As you are probably aware, we have 3 separate 
negotiations that could result in settlements in the near future. If 
these negotiations are to be successful, the federal government will 
need to invest large sums of money. Although we hope to spread this 
investment over a number of years, both BIA and Reclamation's budget 
would be affected.
    Do you believe that the best way to address the issue of Indian 
water rights claims is through negotiated settlements or should they 
simply be litigated?
    Answer. I believe the Department of the Interior's long-standing 
policy of favoring negotiated settlement when possible over litigation 
is a sound policy.
    Question 37b. Are you committed to working with myself and Senator 
Domenici to actively work on finalizing settlements and to try and find 
ways to fund them?
    Answer. Yes.
    Question 38a. I believe that the Title XVI water reuse and 
reclamation program can provide important water resources for the 
water-short West. In response to questions that we submitted on the 
President's Budget for Fiscal Year 2006, the Department responded that 
the program had met its primary mission.
    What do you see as the future for this program?
    Answer. I would like to see the Title XVI program focus its efforts 
on research and development of improved water treatment technology, 
particularly desalination.
    Question 38b. Will you support making this program a budget 
priority?
    Answer. I believe that the Title XVI Program has successfully 
demonstrated that water reclamation and reuse can help increase both 
the availability and reliability of local water supplies in the Western 
states. Water treatment technology such as desalination is an effective 
way to support water recycling and reuse in the West. I would be happy 
to work with Congress on the Title XVI Program, while not diminishing 
Reclamation's core mission of meeting its contractual commitments of 
delivering water and power to Reclamation customers.
    Question 39. Many parts of the West have been experiencing a record 
drought. The Bureau of Reclamation currently has authority to undertake 
drought relief measures pursuant to the Reclamation States Emergency 
Drought Relief Act of 1991. I understand that this authority allows 
temporary emergency construction assistance and planning activities.
    Would additional drought response authority be useful? If so, would 
you work with us on that issue?
    Answer. I believe the Reclamation States Emergency Drought Relief 
Act of 1991 provides sufficient authority to address temporary 
construction, emergency water management, and drought planning 
activities. I stand ready to work with the Committee to reauthorize 
this statute.
    Question 40. What initiatives do you expect to undertake as 
Assistant Secretary for Water and Science?
    Answer. As I stated in my statement to the Committee during my 
confirmation hearing, the Secretary launched her Water 2025 initiative 
a couple of years ago. If confirmed, I am committed to continuing the 
implementation of Water 2025 during my tenure as Assistant Secretary. 
Preventing conflict and crises over water in the West, especially in 
areas where we can logically predict such problems in advance, is a 
high priority for this Administration. Promoting the use of existing 
tools, such as conservation and efficiency, water markets, and new 
technology, can alleviate the pressures of conflicting and competing 
uses for finite water supplies. Along these same lines, I am very 
interested in preparing our existing Federal water infrastructure for 
the challenges of the future in a manner that protects the Federal 
investment, while recognizing Federal budget constraints as well as the 
financial health of project beneficiaries. We must find new, innovative 
ways to finance the rehabilitation and modernization of our aging water 
facilities in order to deal with emerging needs for water in the West 
while not jeopardizing traditional water users in the process. Our 
existing water storage and delivery infrastructure is the foundation 
for the future of the West, and we must operate and maintain these 
facilities in a cost-effective manner. Finally, I intend to focus on 
ensuring the Bureau of Reclamation is prepared to meet these future 
challenges by reviewing, both externally and internally, the agency's 
management structure. I believe the West and the Nation are best served 
by a focused, efficient, and fiscally transparent Bureau of Reclamation 
that can provide cost effective, value added products and services. 
With respect to the United States Geological Survey (USGS), I look 
forward to continuing the critical mission of this agency to provide 
reliable scientific information to describe and understand the Earth; 
minimize loss of life and property from natural disasters; manage 
water, biological, energy, and mineral resources; and enhance and 
protect our quality of life. If confirmed, I will work with the USGS in 
completing its current reorganization efforts in order to ensure our 
Nation continues to receive the timely, relevant and impartial science 
that this country has come to depend on and trust. I look forward to 
working with you and the Committee in these efforts.
    Question 41. What actions will you take to carry out Interior's 
trust responsibilities to Indian tribes?
    Answer. The United States government has a unique legal 
relationship with federally recognized American Indian Tribes. This 
trust responsibility emanates from treaties, statutes, judicial 
decisions and agreements with tribal governments. I intend for my 
office and the agencies that report to me to do our part to protect and 
honor the rights reserved or granted to Indian Tribes or Indian 
individuals. If I am confirmed, I assure you that I will continue to 
work with and consult with tribal members and leaders to resolve issues 
which fall within the jurisdiction of the office of the Assistant 
Secretary for Water and Science. Specifically, I will ensure that water 
rights negotiations are handled with the utmost respect for all parties 
involved.
    Question 42a. There have been a number of concerns raised by 
entities participating in the Middle Rio Grande ESA Collaborative 
Program about the inefficient process by which the Bureau of 
Reclamation enters into contracts or cooperative agreements to expend 
money in support of the program.
    Can you describe the contracting process in detail?
    Answer. Reclamation uses a negotiated procurement process to award 
funding for Collaborative Program projects. This contracting process 
can result in a contract, grant, cooperative agreement, interagency 
agreement, or Indian Self Determination Act (P.L. 93-638) contract. 
Reclamation's process for similar projects takes five months from 
advertising the Request for Proposals to award. The process with the 
Collaborative Program currently takes 10 to 11 months because of the 
need to work with the stakeholders and reach consensus on which 
proposals are to be funded.
    The following steps are included in the contracting process:

    1. Development of statement of work by the Collaborative Program.
    2. Prepare solicitation documents and have them reviewed by the 
Collaborative Program.
    3. Electronically advertise the Request for Proposals via e-
Government web site.
    4. Accept proposals and review them to ensure all mandatory 
information is included.
    5. Technical evaluation of the proposals by the Collaborative 
Program.
    6. Cost evaluation of the proposals by the Reclamation cost analyst 
and the Collaborative Program.
    7. Preparation of additional technical and cost-related questions 
for the proposers.
    8. Accept answers and final proposals and have them reviewed by 
Reclamation and the Collaborative Program.
    9. Reclamation holds negotiations with proposers.
    10. Collaborative Program makes funding recommendations to 
Reclamation.
    11. Reclamation prepares award instruments for legal review.
    12. Award instruments are accepted by Grantee and Reclamation.

    Question 42b. Can the process be improved, and if so, is there any 
ongoing effort underway within Reclamation to implement those 
improvements?
    Answer. We are currently identifying major issues and formulating 
possible solutions. The goal is to identify a process which will be 
more efficient and effective, resulting in improved program 
performance.
    It is essential that the Collaborative Program provide the 
technical expertise to identify intended accomplishments, prioritize 
activities, and propose the best methodology to achieve their 
objectives. Reclamation must administer the contracting processes in 
accordance with federal regulations; however, we believe the 
contracting process for the Middle Rio Grande Collaborative Program can 
be streamlined and improved. Such improvements should help focus on 
results for the program rather than on administrative processes.
    Question 43a. I have a bill (S. 214) entitled the ``United States-
Mexico Transboundary Aquifer Assessment Act'', which is intended to 
develop a strong scientific understanding of groundwater resources 
shared between the U.S. and Mexico. The bill would help inform water 
management decisions at the state and local level and help avoid 
conflicts between the United States and Mexico. The bill has strong 
bipartisan support and will hopefully be enacted into law in the 109th 
Congress.
    Do you agree that conflicts over water might be avoided by 
developing a better understanding of the resource involved?
    Answer. Yes. It is crucial to understand the resources involved in 
order to resolve conflicts among competing interests.
    Question 43b. Will you support the initiative that would be put in 
place by S. 214?
    Answer. If enacted, I would support the underlying initiative. It 
is my understanding that Interior could support this effort if it were 
closely coordinated with and supported by the States of New Mexico, 
Texas, Arizona, and California.
    Question 44. There is a need for improving the efficiency of water 
conveyance infrastructure in the Middle Rio Grande to promote the 
conservation of water and to help address issues involving competing 
demands for water? One area that seems to have received little 
attention is improving the efficiency of infrastructure for the benefit 
of the six Middle Rio Grande pueblos.
    Is there any ongoing efforts to assist the Pueblos with efficiency 
improvements? If not, would you support such efforts?
    Answer. Over the last two years, the Middle Rio Grande Conservancy 
District has received about $3 million under the Water 2025 program for 
water conservation and infrastructure improvements. This funding can be 
used throughout the District, including those portions of the six 
Middle Rio Grande Pueblos facilities within the Middle Rio Grande 
Project. Reclamation has funded a variety of small infrastructure 
improvement projects for Pueblos in New Mexico through its Native 
American Program. However, this Program does not have the authority to 
cover major rehabilitation projects on Pueblo facilities. I will ask 
Reclamation to continue to examine authorities and funding availability 
to upgrade Pueblo facilities.

       Responses of Mark Limbaugh to Questions From Senator Smith

    Question 45a. The Bureau of Reclamation markets irrigation water 
from the Fern Ridge Reservoir, which is an Army Corps of Engineers 
facility. The dam is undergoing major repairs this year, because it was 
in imminent danger of catastrophic failure. I am working to ensure that 
the irrigators are not forced to pay a disproportionate share of these 
repairs, and are not faced with huge increases in their water rates in 
the future. There is legislative language on pp. 65-66 of the Senate-
passed Energy and Water Development Appropriations bill (H.R. 2419, 
with strikeouts, Report No. 109-84) to ensure that the repayment 
obligations and financial exposure of the irrigators who get their 
water from this facility is limited.
    Can you provide me with the Department's assessment of the 
repayment obligations of the irrigators as a result of this language? 
For example, will they be responsible for 15 percent of the total cost 
of the repairs, or for 15 percent of that percentage of project 
benefits that is allocated to irrigation?
    Answer. The legislative language in question provides:

          Sec. 124. The Chief of Engineers shall define the repairs 
        made at Fern Ridge Dam as a dam safety project and costs shall 
        be recovered in accordance with Section 1203 of the Water 
        Resources Development Act of 1986: Provided, That costs 
        assigned to irrigation will be recovered in accordance with 
        Public Law 98-404.

    It is our understanding that the U.S. Army Corps of Engineers 
(USACE) has allocated 46% of the cost of Fern Ridge Dam to irrigation. 
Therefore, the legislative language will result in the irrigators being 
responsible for repayment of 46% of 15% of the total cost of the dam 
safety work on Fern Ridge Dam.
    Question 45b. What is the repayment period?
    Answer. Safety of dams repair costs on USACE facilities allocated 
to irrigation are repaid in accordance with the Reclamation Safety of 
Dams Act Amendments of 1984 (P.L. 98-404). While Section 2(c)(2) 
provides a maximum repayment period of 50 years for safety of dams 
costs by irrigators, the actual period may be shorter. The repayment 
period for the repairs of Fern Ridge will be determined following 
further review of a number of financial factors by Reclamation.
    Question 45c. What is the estimated total financial obligation of 
the irrigators under this legislative language?
    Answer. We understand that the USACE has estimated the repair cost 
to be $22,300,000. Pursuant to the proposed legislation, 15% of this 
cost, or $3,345,000, would be allocated to the authorized purposes of 
the dam in accordance with the existing cost allocation. Accordingly, 
46% of this amount, or $1,538,700, would be allocated to the irrigation 
purpose for reimbursement. Using the historic practice agreed upon 
between Reclamation and the USACE for assigning and recovering 
construction and operation and maintenance costs for the water 
marketing program for the Willamette Basin Project, the impact of the 
proposed legislation would be a one-time $1.00 per acre-foot surcharge 
to the contract rate, which is presently $8.00 per acre-foot. The 
Reclamation Safety of Dams Act Amendments of 1984 (P.L. 98-404) 
provides for a repayment period of up to 50 years in consideration of 
the irrigators' ability-to-pay. In consideration of prior analyses of 
ability-to-pay completed for irrigators in other areas of Oregon, we 
believe the estimated $1.00 per acre-foot surcharge would be within the 
irrigators' ability to pay.
    Absent the legislation, 44.9% of the repair costs, or $10,012,700, 
under the USACE O&M program would be allocable to irrigation and a one-
time $6.29 per acre-foot surcharge to the contract rate would be 
required.
    Due to the significant amount of uncontracted storage, 
approximately 97% in the Willamette Basin Project, reimbursement of a 
majority of the repair costs allocable under either the Safety of Dams 
or O&M programs would be deferred until such time as the water may be 
contracted.
    The USACE may have additional perspectives on Fern Ridge Dam.
    Question 46. The Grants Pass Irrigation District is facing court 
imposed deadlines as a result of the consent decree it entered into, to 
which the Justice Department also agreed. What is Reclamation's 
timeline for completion of the pump station to replace Savage Rapids 
Dam? What is Reclamation's current estimate of the funds that will be 
needed in each of the fiscal years to complete this project in a timely 
manner?
    Answer. Reclamation is completing final design of the pumping plant 
and currently anticipates that construction of the pumping plant could 
begin in June 2006 and be completed in April 2008, with dam removal 
activities completed 2009. However, this is an ambitious schedule and 
any delays could postpone project completion up to one year given the 
limited in-water work period. Partial removal of the dam will start 
following completion of the pumping plant.
    Cost estimates are being refined through the final design process. 
Reclamation currently estimates that completion of the project on this 
ambitious schedule would require the following funding:

                              [$ millions]
------------------------------------------------------------------------
 Thru FY
    05      FY 06\1\    FY 07      FY 08      FY 09     FY 10    TEC\2\
------------------------------------------------------------------------
  2.3        2.0       13.0       10.7        1.5       0.5      30.0
------------------------------------------------------------------------
\1\ The President's Request in FY2006 is $1.0 million, which was the
  estimated maximum capability at the time. Current information now
  estimates Reclamation capability at $2.0 million.
\2\ Includes 3.0 million in non-federal cost share.

    The current total estimated cost (TEC) for Savage Rapids Dam 
Removal is approximately $30 million (October 2004 dollars). The State 
of Oregon has committed $3 million towards dam removal leaving the 
Federal share of the Project at about $27 million.
    Question 47. Please provide me with a list and the status of any 
studies being conducted by the U.S. Geological Survey pertaining to the 
Klamath River Basin.
    Answer.
    1. Source and Dynamics of Internal Phosphorus Loading in Upper 
Klamath Lake--This new project is focused on understanding internal 
loading of phosphorous from bottom sediments in Upper Klamath Lake. 
Understanding the sources of sediment phosphorous contributing to 
internal loading will inform decision makers on how best to target lake 
and watershed restoration activities and provide realistic expectations 
for lake recovery. The 2-year project is in the data collection phase 
this summer. USGS Oregon Water Science Center.
    2. Water-Supply Forecast Improvement Efforts--This project, in 
collaboration with the U.S. Department of Agriculture/Natural Resources 
Conservation Service, is designed to explore new techniques and new 
types of data to help improve water-supply forecasts in the Klamath 
Basin. The efforts were met with some success, and a final report is in 
preparation for completion by September 2005. USGS Oregon Water Science 
Center.
    3. Water Bank Review--This review evaluated the Upper Klamath Basin 
water bank from a hydrologic perspective. The review document was 
completed in May 2005. USGS Oregon Water Science Center.
    4. Klamath Basin Rangeland Trust (KBRT) Review--The Science Center 
reviews monitoring plans and reports each year. The 2004 KBRT 
monitoring plan review was completed in April 2005. USGS Oregon Water 
Science Center.
    5. Klamath Project Diversion and Return Review--This effort focuses 
on evaluating historic data and data collection methods for the Bureau 
of Reclamation Klamath Project relative to major inflows and outflows. 
This review will be completed by September 2005. USGS Oregon Water 
Science Center.
    6. Review of Refuge Water Use--The Bureau of Reclamation currently 
obtains water-use data for refuges in the Klamath Project from USFWS. 
USGS was asked to review the data. This review will be completed by 
September 2005. USGS Oregon Water Science Center.
    7. Review of Temperature Models Developed for the Klamath River 
System--This effort involves the review of different water-temperature 
models that have been developed for the Klamath River. The review will 
be completed in early FY 2006. USGS Oregon Water Science Center.
    8. Monitoring of Water Quality in Upper Klamath Lake--Implemented 
this year, the objective of this long-term monitoring program is to 
provide researchers and decision makers information needed to support 
the goals of the Clean Water and Endangered Species Acts. This program 
will continue advancing the understanding of Upper Klamath Lake 
ecosystem functions. The program is ongoing. USGS Oregon Water Science 
Center.
    9. Development of a Hydrodynamic and Water Quality Model of Upper 
Klamath Lake--This project will improve our understanding of wind-
driven water circulation in Upper Klamath Lake and will evaluate the 
extent to which wind conditions determine the varying dissolved oxygen 
concentrations in the lake. The project is in its first year. USGS 
Oregon Water Science Center.
    10. Adaptive Management of Wood River Wetland for Optimized Water 
Quality, Water Yield, and Wildlife Habitat, Upper Klamath Basin--This 
study was designed to establish baseline conditions and evaluate the 
effects of various management scenarios on water quantity, water 
quality, and wetland habitat. This 4-year study is expected to be 
completed in FY 2006. USGS Oregon Water Science Center.
    11. Channel processes and morphology, Sprague River--This new 
project will provide basic information on how the river channel, 
floodplain, and related water features operate and on changes in these 
features over the last 100 years or more. It also will identify key 
features and sites for restoration of habitat and geomorphological and 
hydrological processes. This information will aid in determining 
critical locations and processes for which restoration activities may 
have substantial beneficial effects. The project will last 3 years. 
USGS Oregon Water Science Center.
    12. Upper Klamath Basin Ground-Water Investigation--This project is 
designed to develop a quantitative understanding of ground water in the 
upper Klamath Basin and a ground-water flow model that can be used to 
guide water management. This 7-year project is nearing completion with 
the computer model in development. USGS Oregon Water Science Center.
    13. Upper Klamath Basin Conjunctive-Use Optimization--This project 
is designed to take the ground-water flow model for the basin currently 
in development and couple it with an optimization model. This 
information will enable decision makers to optimize ground-water use. 
The project is in the early stages and scheduled for completion in 
2007. USGS Oregon Water Science Center.
    14. Upper Klamath Basin Ground-Water Monitoring--Through this 
project, USGS is leading efforts to monitor the response of the ground-
water system to increased pumping that has occurred since 2001, and 
help decision makers adaptively manage the resource in the short term. 
The USGS Oregon Water Science Center coordinates efforts of several 
state and federal agencies. This monitoring is ongoing.
    15. The Oregon Water Science Center also operates 9 streamgages in 
the Klamath Basin. That work is ongoing and includes the 3 gages that 
are used to determine average lake elevation for Upper Klamath Lake. 
Lake elevation and Klamath River flow data are critical for management 
of water in the basin each year, and specifically for meeting 
biological opinion elevations and flows.
    16. Klamath River Young-of-the-Year Fish--This project is providing 
assessments of juvenile fishes for management of imperiled fishes in 
the Klamath River. The study was begun in 2005 and will continue in 
2006. USGS Fort Collins Science Center.
    17. Wood River Tributary Water Quality Study--This project provides 
water quality monitoring support in a tributary of the Klamath River 
that influences water quality and water quantity in the Klamath River. 
The study was begun in 2005 and will continue in 2006. USGS Fort 
Collins Science Center.
    18. Federal Energy Regulatory Commission Re-licensing Analysis--
This project is conducting simulations of different water management 
alternatives that have been developed by a multi-agency group for re-
licensing of three hydropower facilities on the Klamath River. Results 
will provide water managers with information to balance water 
availability issues for multiple uses in the basin, including 
hydropower, irrigation, and fishery resources. The study was begun in 
2005 and will continue in 2006. USGS Fort Collins Science Center.
    19. System Impact Assessment Model (SIAM) for Iron Gate Dam 
Operations--USGS will adapt the SIAM model to predict reservoir release 
water quality and identify potential effects on Chinook production in 
the Klamath River. The study was begun in 2005 and will continue in 
2006. USGS Fort Collins Science Center.
    20. Fish Population Assessments--Mark/Recapture Protocols--
Statisticians will use ten years of mark/recapture data from the adult 
sucker monitoring program to develop population models for the 
synthesis of biological and physical data including hydrologic 
information. The study was begun in 2005 and will continue in 2006. 
USGS Patuxent Wildlife Research Center.
    21. Bioenergetics--This project will develop bioenergetic models 
for adult shortnose and Lost River suckers to predict size, condition, 
and survival of fish under different summer conditions. Optimal growing 
conditions can be characterized with these types of physical and 
biological models, considering variable diet, ration, temperature, and 
environmental conditions. The study was begun in 2005 and will continue 
in 2006. USGS Columbia Environmental Research Center.
    22. Population Dynamics Models--This project will determine the 
distribution and general movement patterns of adult Lost River suckers 
and shortnose suckers in Upper Klamath Lake to determine specific 
sucker locations and their association with water depth and selected 
water quality variables. The study was begun in 2005 and will continue 
in 2006. USGS Western Fisheries Research Center.
    23. Fish Health and Disease of Klamath Basin Native Fish--This 
project will determine the effects of chronic exposure to selected 
water quality parameters under typical summer conditions. Effects on 
non-specific immune function and normal blood chemistry in adult Lost 
River and shortnose suckers are analyzed in relation to periodic fish 
kills in the Klamath Basin. The study was begun in 2005 and will 
continue in 2006. USGS Western Fisheries Research Center.
    24. Continued and Enhanced Monitoring of Adult Suckers in Upper 
Klamath Lake--This monitoring program provides information on the 
current status of adult sucker populations with respect to size and 
species composition, age and growth, fecundity, and relative health, 
and allows for the estimation of key population parameters such as 
survival, recruitment, and finite rate of population change by 
analyzing mark-recapture data. The study began in 1995 and is ongoing. 
USGS Klamath Falls Field Station.
    25. Distribution and Spawning Habitat Use by Adult Suckers and 
Production of Larval Suckers above Chiloquin Dam on the Sprague River--
This project will provide information that will help guide proposed 
restoration activities in the Upper Klamath Basin by identifying the 
importance of providing adequate spawning and rearing habitat in the 
Upper Sprague River. With the proposed removal of Chiloquin Dam on the 
Sprague River, the study is providing additional baseline information 
to help assess the effects of dam removal on sucker populations. The 
study began in 2004 and is ongoing. USGS Klamath Falls Field Station.
    26. Distribution and Abundance of Endangered Juvenile Suckers along 
Shoreline Habitats in Upper Klamath Lake, Oregon--This project is 
providing information on the relative importance of habitat types 
available to juvenile suckers along shoreline areas to improve 
understanding of the importance of vegetation, different substrates, 
and other environmental factors for juvenile suckers. This study will 
provide information for decision makers with regard to lake-level and 
habitat management. The study began in 2002 and is ongoing. USGS 
Klamath Falls Field Station.
    27. Bioenergetic Requirements of Endangered Juvenile and Adult Lost 
River and Shortnose Suckers--This project will determine how diet, 
weather, lake elevation, water quality, and other factors influence 
fish growth and survival at various life stages. Data from this study 
will fill a gap in our understanding of these species and provide 
decision makers with information on environmental and hydrologic 
conditions favorable to the growth and survival of these fish. The 
study began in 2005 and is ongoing. USGS Klamath Falls Field Station.
    28. Behavior of Adult Suckers in Upper Klamath Lake with respect to 
Water Quality--This study will examine the role of ``water quality 
refuge'' areas in the survival of adult suckers in Upper Klamath Lake. 
This joint study involves intensive data collection of fish behavior 
and movements and water quality monitoring during the spring and summer 
months. These data are needed for determining the conditions leading to 
periodic fish kills that threaten the survival of two sucker species in 
Upper Klamath Lake. The study began in 2002 and is ongoing. USGS 
Western Fisheries Research Center, USGS Oregon Water Science Center, 
USGS Klamath Falls Field Station.
    29. Lower Klamath River Water Quality Investigation--This study 
modeled streamflow temperature for Total Maximum Daily Load work being 
done by the North Coast Regional Water Quality Control Board. The 
report is currently in review. USGS California Water Science Center.
    30. The California Water Science Center also operates 29 
streamgages in the Klamath River Basin; 21 are used to monitor 
streamflow discharge, 3 are used to monitor lake or reservoir elevation 
or stage, 10 are used to monitor water chemistry, 11 are used to 
monitor water temperature, and 2 are used to monitor sediment. That 
work is ongoing.
    Question 48. Please describe the data collection and research 
activities related to anadromous fish of the USGS Western Fisheries 
Research Center, particularly Columbia River Research Laboratory. How 
are these activities coordinated with other federal, state, and tribal 
agencies with fisheries responsibilities in the basin?
    Answer. The U.S. Geological Survey Western Fisheries Research 
Center has two major research facilities in the Pacific Northwest with 
science activities in Puget Sound and the Columbia River Basin. The 
anadromous fish research of the Center is conducted for the Department 
of the Interior and other Federal agencies at the Columbia River 
Research Laboratory (CRRL), with up to 50 major anadromous fish 
research projects ongoing in the Columbia River Basin. These projects 
address the science priorities of the major fishery and water managers 
in the region. Anadromous species research focuses on data collection, 
behavior, and survival of salmon and steelhead at dams; fish physiology 
and condition (e.g., gas bubble disease); predation and competition 
(e.g., bioenergetics modeling); water quality effects on habitats and 
fish; population dynamics (growth, survival, and recruitment); 
evaluation of habitat restorations; thermal stress on fishes; effects 
of invasive species; and effects of long-term changes in environmental 
quality.
    The CRRL is renowned for its expertise in biotelemetry and research 
on fish passage at hydropower dams on the Columbia and Snake Rivers. 
The CRRL's geospatial group is developing novel decision support 
systems to analyze spatial patterns of habitat use by anadromous 
fishes, especially juvenile salmon, and their responses to varying 
flows and other variable habitat conditions. The CRRL coordinates with 
and is funded by the U.S. Army Corps of Engineers (USACE), the 
Department of Energy, the states of Washington and Oregon, and Columbia 
Basin tribes including the Yakama, Umatilla, Warm Springs, and 
Kootenai.
    The U.S. Geological Survey Western Fisheries Research Center 
science addresses fish health, fish ecology, and aquatic ecosystems of 
anadromous fishes, such as Pacific salmon and steelhead, bull trout and 
cutthroat trout, and Pacific lampreys and white sturgeon, in watershed 
and coastal habitats. Molecular biology and genetics studies focus on 
physiological conditions of anadromous species and hatchery-wild salmon 
interactions, with particular attention to threatened and endangered 
salmonids or other anadromous species of special concern to DOI and 
other fishery managers. Disease ecology studies are focused on the 
major viral and bacterial diseases of hatchery-reared salmon and, in 
the wild, increasingly on forage fish upon which they feed and that may 
be potential disease vectors. Other work is focused on age and growth 
of juvenile salmon and their residence in key aquatic habitats (e.g., 
rivers, estuaries, and nearshore marine environments).
    USGS anadromous fish research is coordinated with other federal 
agencies nationally, including Bonneville Power Administration, the 
USACE, the U.S. Fish and Wildlife Service, the Bureau of Reclamation, 
and the U.S. Forest Service. The CRRL research is coordinated with the 
Columbia River Intertribal Fisheries Commission; Pacific Northwest 
Planning Council (provides scientific review for the states to the 
Bonneville Power Administration); Technical Management Team (group of 
water and fisheries managers in the basin); Fish Passage Advisory 
Committee (working group responsible to Columbia Basin Fish and 
Wildlife Authority); USACE Studies Review Work Group for the Anadromous 
Fish Evaluation Program for Columbia River hydropower system; Fish 
Facility Design Review Work Group (working group of federal, state, and 
tribal authorities providing advice to USACE); and the Pacific 
Northwest Aquatic Monitoring Program.

      Responses of Mark Limbaugh to Questions From Senator Salazar

                            ANIMAS LA PLATA

    Question 49a. The President's FY 06 budget called for $52 million 
for this project--the same level as FY 04 and '05 spending. The Energy 
& Water Appropriations Bill, H.R. 2419, has passed the Senate and is 
headed to conference. The House provided $56 million for this project, 
and the Senate provided $60 million. This amount will fund continued 
construction of the project's major features, including Ridges Basin 
Dam and the Durango Pumping Plant. While physical construction of these 
two features began in FY 03, this level of funding is necessary to keep 
current contract commitments, which will keep the project on schedule.
    Please provide me with an update on the status of the project, its 
expected completion date and about any problems or obstacles that the 
Department anticipates.
    Answer. Reclamation is making substantial progress on the Project 
and it is on schedule and within the construction cost estimate, 
accounting for inflation. The entire project is nearly 25 percent 
complete. Prior to 2005, essentially four construction contracts had 
been completed out of a total of nine contracts awarded to date. This 
March, Reclamation awarded its largest contract for Ridges Basin Dam 
Completion, for $84.9 million. Cultural resource and environmental 
mitigation are on schedule.
    The expected completion date of physical features is 2011, with 
project closeout in 2012. This completion date is highly dependent upon 
funding levels and other risks which come with any large civil works 
project. These other risks are related to the potential for unknown 
site conditions, significant hydrologic events, surprises in the 
cultural resource mitigation work, land acquisition settlements, etc. 
We believe we are prepared for these; however, should significant 
issues arise, they could lead to delays.
    Question 49b. Will the Administration support the Senate funding 
level ($60 million) in conference?
    Answer. The Administration appreciates the continued support the 
Congress has provided for this important effort. As you stated, the 
President's request is $52 million, which is adequate to maintain the 
current schedule. If Congress provides $60 million in the final action 
on the FY 2006 Energy and Water Development Appropriations, the funds 
could be used in FY 2006 for construction work underway on Ridges Basin 
Dam.
    Question 49c. Will you assure me and the people of Colorado that 
you will make this project a priority in your role as Assistant 
Secretary for Water & Science?
    Answer. Yes.

                       PLATTE RIVER RECOVERY PLAN

    Question 50a. As you know, Colorado, Nebraska and Wyoming signed a 
cooperative agreement with DOI in 1997 to pursue a comprehensive basin-
wide program to address habitat needs of endangered species in the 
Central and Lower Platte River basin. The program is designed to 
benefit the species by protecting and enhancing their habitat which, in 
turn, will obviate the need for ongoing ESA issues affecting hundreds 
of existing and planned federal and private irrigation, municipal water 
supply and power generation projects throughout the Platte River basin. 
The required NEPA and ESA reviews of the proposed program are scheduled 
to be completed by October 2005 and a Record of Decision (ROD) is 
expected by December 2005 or January 2006.
    Please provide me with an update and status of these reviews and 
preparation of the ROD.
    Answer. Reclamation, as co-lead with the U.S. Fish and Wildlife 
Service for preparation of the Environmental Impact Statement (EIS), is 
aiming to complete the EIS by the end of September of this year. This 
schedule would leave two months for completion of a final Biological 
Opinion by the Fish and Wildlife Service prior to a Secretarial Record 
of Decision in December, 2005.
    Question 50b. Once again, the Senate has restored funding for this 
essential project in the Interior appropriations bill ($982,000 for FY 
06). As Assistant Secretary for Water & Science, you will do everything 
you can to ensure that the Fish & Wildlife Service has adequate funding 
to complete the required NEPA and ESA reviews and development of the 
Platte River Program?
    Answer. The budget for the Fish and Wildlife Service is overseen by 
the Assistant Secretary for Fish, Wildlife, and Parks, not the 
Assistant Secretary for Water & Science, but I will certainly 
communicate with the responsible officials in the Fish and Wildlife 
Service regarding the importance of this project.
    Question 50c. Will you likewise ensure that the Bureau of 
Reclamation has adequate funding to implement the program in 2006?
    Answer. I would recommend that the Bureau of Reclamation carry out 
the program at the funding level provided for in the Fiscal Year 2006 
Energy and Water Appropriations bill, which has already passed both 
bodies of Congress and awaits final conference action.

           UPPER COLORADO RIVER ENDANGERED FISH RECOVERY PLAN

    Question 51a. This recovery program, established in 1988, continues 
to be a success. It has begun its third year of concerted efforts to 
manage northern pike and smallmouth bass in certain river reaches where 
these nonnative fish species threaten the survival of the endangered 
humpback chub, bonytail, Colorado pikeminnow and razorback sucker.
    Please provide me with an update and status of the program.
    Answer. The Recovery Program is implementing aggressive efforts to 
construct fish passages, fish screens, and propagation facilities; 
restore habitat; acquire water; enlarge water storage reservoirs; 
control nonnative fish; and improve water use efficiency to recover 
four listed Colorado River fish species. The non-native fish control 
measures that you mentioned are occurring in the Yampa, Green, and 
Colorado Rivers. To date, the Program has served as the reasonable and 
prudent alternative for water projects while avoiding Endangered 
Species Act (ESA) related litigation.
    Question 51b. Again, the Senate voted overwhelmingly to restore 
funding ($691,000 for FY 06) for the Upper Colorado River fish recovery 
project. Will you reaffirm your commitment to the success of this 
program?
    Answer. I affirm my commitment to the success of this unique 
program that allows water development to continue, while realizing 
sufficient progress in recovering the endangered species.

                 SAN JUAN RIVER BASIN RECOVERY PROGRAM

    Question 52. Like other recovery programs, the purpose of this 
program is to help recover the endangered fish while allowing water 
development to continue under the Colorado River Compact. The program 
recently developed ``Principles for Conducting ESA Section 7 
Consultations on Water Development and Water Management Activities 
Affecting Endangered Fish Species in the San Juan River Basin.'' These 
principles provide certainty for water users with respect to both the 
process and the outcome of the Section 7 consultation.
    Will you affirm your support, if confirmed, for the necessary 
annual appropriations for this program?
    Answer. Yes, I affirm my support for this program subject to the 
President's annual budget request.

                        ARKANSAS VALLEY CONDUIT

    Question 53. As you know, my bill (S. 1106) would provide an 80/20 
cost share by the federal government to build the Arkansas Valley 
conduit. The Arkansas Valley Conduit will deliver fresh, clean water to 
dozens of valley communities and tens-of-thousands of people along the 
river. Community leaders continue to explore options for financing 
their share of the costs and are working hard to develop the 
organization and agreements that will oversee the conduit project.
    Will you affirm your support for S. 1106?
    Answer. While I have not examined this legislation in great detail, 
I am aware of economic challenges relating to the feasibility of this 
project. Since the Department has not been asked to testify on S. 1106, 
I prefer to reserve judgment until I have had an opportunity for a more 
thorough review.

                COLORADO RIVER COMPACT SHORTAGE CRITERIA

    Question 54a. Will you provide me with an update and status of the 
upper and lower basin state negotiations?
    Answer. Representatives from the seven Colorado River Basin States 
have been meeting regularly since March 2004 with the goal of 
developing consensus recommendations on the operation of the Colorado 
River reservoirs under drought and low reservoir conditions. At the 
request of the States, the Department and Reclamation have been 
participating in some of these meetings. Reclamation has been providing 
technical support to the States, performing river simulation modeling 
to analyze the various operating strategies developed by the States. 
Given recent discussions, the Department remains hopeful that the Basin 
States will advance a consensus recommendation within the next few 
months.
    Question 54b. If confirmed, will you affirm the Department's 
commitment to developing shortage criteria for Powell in the event the 
current drought continues?
    Answer. In a May 2005 letter to the Governors of the seven Colorado 
River Basin States, Secretary Norton announced that Reclamation would 
immediately begin developing additional operational tools and 
management strategies to guide future operations of Lake Powell and 
Lake Mead, not only during future droughts, but also under low 
reservoir conditions. Reclamation has begun to meet this commitment by 
holding a public meeting in Henderson, Nevada on May 26, 2005, and 
published a Federal Register notice regarding this effort on June 15, 
2005. I am committed to following through on the Secretary's direction 
on this important effort.
                                 ______
                                 
       Responses of Tom Weimer to Questions From Senator Domenici

    The Department plays a critical role in emphasizing responsible 
development of energy resources on Federal lands. As you know we are 
starting our conference with the House on a comprehensive energy 
package. We will be looking to the Department to implement many aspects 
of our final bill.
    Question 1a. Over the past few years we have pressed for improved 
service in the Department energy programs. With the Energy Bill, we are 
providing some new tools and streamlining others.
    Can you tell us what kind of commitment we can expect in 
implementing a National Energy Policy?
    Answer. At the outset, I want to thank you for your leadership and 
hard work in introducing and passing the National Energy Policy Act of 
2005. As you know, the President is deeply committed to facilitating 
the development of additional domestic energy resources on public lands 
in an environmentally responsible manner. If enacted, we will work 
diligently to implement the provisions in the Energy Bill that apply to 
the Department of the Interior.
    Question 1b. Can we expect that commitment to be reflected in 
future budget requests?
    Answer. The President's budget prioritizes energy development on 
public lands. We anticipate that commitment will continue to be 
reflected in future budget requests.

                           ENERGY DEVELOPMENT

    Question 2. OMB is likely to require cuts in the Department 
programs over the next few years in an attempt to reduce the deficit. 
But cuts in your Energy programs can be described as ``penny wise but 
pound foolish''. If DOI has the resources to process drilling permit 
applications in a timely fashion, I expect we will see dramatic 
increases in receipts due to both increased production as well as from 
higher prices.
    Do you agree with this expectation, and, if so, will you make a 
commitment to make the case to OMB that an investment in processing 
drilling permit applications will pay off?
    Answer. Yes, I agree that increased domestic energy production and 
continued high energy prices should contribute to significant increases 
in receipts to the Treasury as the Department is able to permit 
increased activities on Federal lands and the Outer Continental Shelf. 
Over the last several years, the Department of the Interior and the 
Bureau of Land Management have prioritized the expeditious processing 
of applications for permits to drill, and we will continue to do so. 
Our budget requests have emphasized the importance of reducing our 
dependence on imported energy and the economic benefits of increasing 
domestic production, including the significant revenues that will 
accrue to the Treasury from comparatively small investments in 
Interior's energy management programs.

                           ENERGY DEVELOPMENT

    Question 3. This nation is the ``Saudi Arabia'' of Oil Shale and 
the bulk of this resource is on Federal Land. One new program I'm 
trying to see funded in the FY2006 Appropriation would initiate an Oil 
Shale Leasing Program at BLM.
    Can I get a commitment that, if confirmed, you will aggressively 
implement such a program?
    Answer. Yes. In fact, the BLM's commitment to developing a program 
for Oil Shale Leasing is evidenced by very recent action taken pursuant 
to the Secretary's existing authority under the Mineral Leasing Act. On 
June 9, 2005, the BLM published a new, final oil shale lease form in 
the Federal Register, calling for nominations for parcels of public 
lands for oil shale research, development, and demonstration 
activities. The Federal Register Notice outlined a Research, 
Development, and Demonstration (RD&D) leasing program allowing tracts 
of Federal land of up to 160 acres to be used to demonstrate the 
economic feasibility of today's technologies over a period of up to 10 
years. Lessees may, at the time of their nomination, request additional 
lands be reserved for a preference right lease on contiguous acreage 
which, taken together with the RD&D lease tract, do not exceed 5,120 
acres.
    The BLM is also looking at what level of commercial leasing 
regulations it could propose for comment. These regulations may be 
proposed concurrently with the RD&D program. If confirmed, I will work 
closely with you and the Committee on this issue.

                        HOMELAND SECURITY COSTS

    Question 4. How much have DOI's costs increased since 2001 as a 
result of homeland security requirements, and has there been an 
equivalent budget increase to support the effort? If given the 
opportunity to change the existing system, how would you budget for and 
reimburse bureaus for unexpected homeland security requirements such as 
changes from yellow to orange alert status?
    Answer. Since 2001, the Department has experienced increased costs 
relating to the protection of key dams and monuments; protection of DOI 
employees, visitors, and natural and cultural resources; and in 
responding to the increased security needs associated with code orange 
alerts.
    For the National Park Service, since the attacks on September 11, 
2001, Congress has appropriated nearly $87.6 million in one-time 
funding and over $36.4 million in recurring funding directly related to 
homeland security costs. The $87.6 million includes $53.1 million for 
construction projects related to homeland security, including $17.8 
million for the vehicle barrier at Organ Pipe Cactus National Monument. 
The $87.6 million also includes $33.8 million in operational increases 
dedicated to security for icon and border parks, which includes $5.1 
million for border parks.
    The 2006 budget for the Bureau of Reclamation includes $50 million 
for site security to ensure the safety and security of critical 
infrastructure, an increase of nearly $49 million over 2001.
    In total for all Interior agencies, the 2006 budgets for law 
enforcement increases by $70.7 million over 2003 levels. A significant 
portion of this increase is for homeland security. (The law enforcement 
budget has also been increased to address law enforcement reforms, 
expanded law enforcement responsibilities and emerging needs such as 
BIA detention facilities.)
    The Department has budgeted for security needs in order to maintain 
operations at Alert Level Yellow status at critical infrastructure and 
NPS icon facilities. Because of this, the DOI can now go to orange 
alert with little additional cost. The Department continues to work 
closely with other security and law enforcement entities and the 
Department of Homeland Security to ensure that requirements are 
anticipated and the budgets of the security and law enforcement 
programs adequately address priority needs.

                       FUNDING FOR PAY INCREASES

    Question 5. I have heard that some park units have had to leave 
positions unfilled, and eliminate temporary and seasonal employees in 
order to find sufficient funds to give full time employees authorized 
pay increases and keep up with increasing utility costs. If confirmed, 
would you commit to investigating whether this is true, and determining 
how many positions have been allowed to lapse and where those positions 
are located?
    Answer. I am informed that during 2005, the National Park Service 
(NPS) will employ well over 20,000 FTEs, continuing a historically high 
employment level. To ensure that these personnel resources are 
appropriately deployed to provide service to the public, the NPS, on a 
regular basis, is undertaking a core mission analysis examining service 
levels, changing demands and new responsibilities. If confirmed, I will 
work with you and the NPS to identify and address the FTE needs of the 
parks to meet their mission requirements.

                      DRILLING PERMIT APPLICATIONS

    Question 6. Where does the Department stand on reducing its backlog 
on drilling permit applications?
    Answer. The Department is committed to the reduction of pending 
applications for permits to drill (APDs). In 2004, the BLM processed a 
record number of APDs (7,351). This year the BLM is running well ahead 
of that record pace in both APDs received as well as those processed. 
At the end of FY 2004, BLM had 2,868 APDs pending, of which only 2,214 
were pending for more than 60 days. As of July 9, 2005 there were 3,802 
APDs pending, of which only 1,916 were pending for more than 60 days. 
The table below shows APDs pending at the end of each fiscal year and 
the number of APDs received and processed during the fiscal year. The 
major challenge in further reducing the number of pending APDs is the 
large number of APDs that have been received in the past two years. 
This demand has remained high in FY 2005; as of July 9, 2005, BLM has 
received 6,230 APDs.

                         STATUS OF PENDING APDs
                              [Bureau-Wide]
------------------------------------------------------------------------
                                                   Increase
                                                    (+) or
                                                  Decrease (-
              TOTAL APDs     APDs     TOTAL APDs     ) in     TOTAL APDs
              Pending at   Received    Processed   Number of  Pending at
Fiscal Year   Beginning     During      During      Pending     End of
              of Fiscal     Fiscal      Fiscal      APDs at     Fiscal
                 Year        Year        Year       End of       Year
                                                    Fiscal
                                                     Year
------------------------------------------------------------------------
    1994        4,033       1,171       2,216      -1,045       2,988
    1995        2,988       1,172       1,964        -792       2,196
    1996        2,196       1,409       2,129        -720       1,476
    1997        1,476       2,645       2,867        -222       1,254
    1998        1,254       3,144       2,670         474       1,728
    1999        1,728       4,505       2,306       2,199       3,927
    2000        3,927       3,977       3,892          85       4,012
    2001        4,012       4,819       4,266         553       4,565
    2002        4,565       4,585       5,830      -1,245       3,320
    2003        3,320       5,063       5,143         -80       3,240
    2004        3,240       6,979       7,351        -372       2,868
------------------------------------------------------------------------

                        PARK MAINTENANCE BACKLOG

    Question 7. What progress has the Administration made toward 
reducing the maintenance backlog in the national park system?
    Answer. The NPS has made significant progress in undertaking 
specific maintenance projects throughout the National Park System as 
well as in establishing and implementing a new management framework 
that will guide the Service's approach to asset management. If enacted, 
the President's FY 2006 budget and surface transportation 
reauthorization proposal would fulfill the pledge to devote $4.9 
billion over five years towards the NPS maintenance backlog.
    With the funds appropriated and collected thus far since FY 2002, 
the NPS has undertaken over 4,000 projects ranging from road repairs to 
historic building stabilization and restroom rehabilitation. In 
addition, the NPS has completed the first ever systematic inventory of 
its assets and conducted initial condition assessments at all parks. 
Comprehensive condition assessments are scheduled to be completed by 
the end of FY 2006.

                          COMPETITIVE SOURCING

    Question 8. How many competitive sourcing studies have been 
conducted by the DOI during this Administration, in which disciplinary 
areas, and what were the findings?
    Answer. The Department has completed 90 studies of 3,000 FTEs 
during this Administration. In 90 percent of these studies, it was 
determined that the Federal Government was the most cost effective 
service provider (sometimes referred to as ``Most Efficient 
Organization''). It is projected that the development of Most Efficient 
Organizations within the Department will result in annual savings of 
$5.3 million per year over the next 5 years.
    A variety of disciplines have been studied, including 
administrative, clerical, archeological, maintenance/custodial, 
auditors, guard services, IT services and fire fighting. By far, the 
discipline studied the most is maintenance/custodial.

                    LAW ENFORCEMENT RANGE RETIREMENT

    Question 9. The position of law enforcement ranger (GS-0025) 
qualifies individuals for retirement after 20 years of service. Some 
individuals that performed law enforcement ranger duties have been 
denied full retirement benefits. The section of the code that specifies 
these retirement benefits is 5 USC 8336(c), commonly referred to as 
6(c) retirement benefits. Interpretation of eligibility is determined 
by the Firefighter and Law Enforcement Retirement Team (FLERT). It has 
come to our attention that there are many concerns as to how these 
retirement rulings are being made.
    How many people have filed a request for 20-year retirement under 
6(c) with FLERT each year since its creation in 1997?
    Answer. Since your question asks specifically about the position of 
law enforcement ranger (GS-0025), which exists only in the National 
Park Service, the following answers pertain only to the NPS.

------------------------------------------------------------------------
                                                                 Number
                                                                   of
                          Fiscal Year                            Initial
                                                                 Claims
------------------------------------------------------------------------
FY 97.........................................................    196
FY 98.........................................................     43
FY 99.........................................................     41
FY 00.........................................................     64
FY 01.........................................................     25
FY 02.........................................................     16
FY 03.........................................................     11
FY 04.........................................................     19
FY 05.........................................................      6
                                                               ---------
    Total.....................................................    421
------------------------------------------------------------------------

    Question 9a. How many of these requests have been denied each year 
since 1997?
    Answer. It is important to note that FLERT does not determine who 
is covered, but reviews whether a position that a claimant held is 
eligible for coverage and for which periods of service. FLERT does not 
maintain a database on all coverage decisions. However, in FY 2004 and 
FY 2005, out of 316 NPS claims reviewed, 99 were fully denied, and 121 
were partly denied (i.e. particular portions of service were denied), 
and 96 were approved.
    Question 9b. What would be the cost in retirement pay and benefits 
over the next 20 years to cover those denied claims?
    Answer. The cost of covering the retirement pay and benefits for 
the denied claims over the next 20 years cannot be calculated at this 
time. This calculation would require: counting the months of service 
denied for coverage for each claimant, determining the percentage of 
benefits that would have been paid in by the agency (which varies by 
each individual's retirement plan), and other factors.
    Question 9c. What is the current backlog of claims awaiting a 
ruling by FLERT?
    Answer. Individual NPS claims pending as of July 15, 2005, total 
139.
    Question 9d. What is the current status of benchmark position 
descriptions regarding the Law Enforcement Ranger, GS-0025 series and 
interpretation of this series as primary law enforcement duties as 
reviewed by FLERT?
    Answer. There currently exist many benchmark position descriptions 
for Law Enforcement Ranger, GS-0025 series, positions within NPS. In 
many cases, those benchmark position descriptions are not used as 
developed, but are modified, which requires FLERT to review them for 
coverage. Additionally, there are a large number of old benchmark 
position descriptions that provided coverage under the old case law. 
Under current case law and interpretation of ``Law Enforcement'' by the 
courts, those positions do not qualify for coverage. A meeting between 
NPS representatives, FLERT, and DOI Office of Human Resources 
representatives is being scheduled for August to review these old 
position descriptions and to determine appropriate coverage under the 
new case law. Additionally, the Office of Law Enforcement and Security 
is convening a group to develop standardized Law Enforcement Officer 
position descriptions for use throughout the Department.

       Responses of Tom Weimer to Questions From Senator Salazar

    Question 1a. I recently learned that the BLM is allowing 
consultants paid for by the oil & gas industry have been allowed to 
work in the Vernal BLM office to process APDs Application for Permit to 
Drill).
    On July 9th, the Salt Lake Tribune reported ``that a handful of 
small oil and gas companies pooled their resources through their trade 
group, Independent Petroleum Association of Mountain States, to hire 
the consultants through SWCA Environmental Consulting to 'volunteer' in 
the Vernal BLM office. The consultants-experts in archaeology, 
paleontology, geology and wildlife biology-went to work in mid-February 
and committed to work full time for three months.''
    Do you understand why this would be alarming for my constituents in 
Colorado?
    Answer. Yes, without the further explanation which the BLM has 
provided below, some stakeholders would find this reporting to suggest 
a potential conflict of interest.
    Question 1b. What specific actions are taking place to insure 
applications are considered in an objective manner in BLM offices with 
these consultants?
    Answer. The BLM Manual 1114.2.22(C) (Volunteers) states that hosted 
workers may provide advisory services, but may not make substantive 
recommendations and decisions that are appropriately made by BLM 
employees, supervisors, and managers. Accordingly, work assignments for 
hosted workers are made by BLM supervisors and managers, not sponsoring 
organizations. Prior to the arrival of hosted workers at the Vernal 
Office, BLM identified the projects on which hosted workers would be 
assigned. Neither the hosted workers nor the consulting firm that 
recruited the workers would have any role in setting work priorities. 
Hosted workers do not have access to BLM proprietary information and 
data. Access to data by volunteers is limited, carefully monitored, and 
controlled.
    The BLM is currently reviewing its policies in this area to further 
ensure that hosted workers are assigned to activities that are 
appropriate and in keeping with applicable laws and regulations.
    Question 1c. Will you cite the authority under which the Department 
is utilizing these consultants as well as any official policies of the 
Department regarding using these consultants.
    Answer. Section 307(c) of the Federal Land Policy and Management 
Act of 1976, as amended, (FLPMA--43 U.S.C. 1737) permits the Secretary 
to `` accept contributions or donations of money, services, and 
property, real, personal, or mixed, for the management, protection, 
development, acquisition, and conveying of the public lands . . .''. 
Section 307(d) of 43 U.S.C. 1737 permits: ``The Secretary to accept the 
services of individuals contributed without compensation as volunteers 
for aiding in or facilitating the activities administered by the 
Secretary through the Bureau of Land Management.'' This legal authority 
is supplemented by BLM Manual 1114.2.22(C) (Volunteers), which provides 
specific guidance of use of hosted workers.
    Question 1d. Section 344 of the Senate Energy Bill (H.R. 6) is a 
provision creating a pilot project to improve federal permit 
coordination in seven BLM field offices. If confirmed, can you assure 
me that consultants hired by industry would not be a part of such a 
pilot project?
    Answer. The BLM would not use hosted workers or volunteers paid by 
industry trade associations in the pilot projects envisioned in the 
Senate's Energy Bill because the pilot projects described relate to 
specific State and Federal workers. I am advised that the BLM views 
implementation of the pilot projects as a policy-making exercise which 
would make the use of hosted workers or volunteers inappropriate. I can 
assure you that I would not approve of using non-Federal workers to 
make Federal decisions on policy.
    Question 2a. The Administration's budget request proposal to 
eliminate the Rural Fire Assistance program is unacceptable to me and 
to most members of this Committee. As you know, the Senate 
Appropriations Committee has restored funding for this program. In the 
arid west, it is absolutely essential to have adequate funding for 
wildland fire management activities, particularly in the ``red zone'' 
adjacent to urban development and other residential areas. As you know, 
rural fire departments are often the first responders to fires on 
federal lands. They face great risk and incur enormous expense fighting 
those fires. The Mason Gulch fire threatened and hundreds of homes in 
Colorado. Thankfully, last night the residents of Beulah were finally 
allowed to return to their homes. But there is still a great deal of 
work to do.
    If confirmed, will you work with me to ensure that funding for 
these vital programs remains one of the Administration's top 
priorities?
    Answer. Yes, I recognize the vital role of rural fire departments 
in protecting their communities, as well as nearby Federal lands, from 
wildfires. The Department of the Interior values its partnerships with 
local fire departments, and I will work with you to make sure those 
partnerships remain strong.
    Interior proposed dedicated funding of $1.9 million in 2006 for 
training and equipping rural firefighters who would become what we call 
the ready reserve of non-Federal firefighters who could fight less 
severe fires around communities without having to call in more costly 
Federal or contract crews. I understand that the Department is 
aggressively working with States and local governments to develop 
community wildfire protection plans and implement hazardous fuel 
treatments. Maintaining an effective interagency network of 
firefighting forces ready to provide rapid, safe, initial attack will 
be a priority for this Administration. I also understand that the 
Department has been working with the Forest Service to create an 
interagency agreement with the Department of Homeland Security to give 
higher priority to wildland fire grants. This agreement will make it 
possible for the DHS Assistance to Firefighters Grants Program to take 
into account the Nation's wildland firefighting priorities when 
awarding grants to fire departments. I am told that agreement has been 
reached at the staff level in the three agencies and the agreement is 
in the process of final agency approvals.
    Question 2b. What other actions is the Department taking to treat 
acreage susceptible to wildfires in the ``red zone''?
    Answer. I understand that the Department has substantially shifted 
the hazardous fuels program toward the wildland-urban interface (WUI) 
as a result of our maturing collaborative relationships with our State, 
Tribal, and local partners. In 2001, treatments in the WUI totaled only 
164,000 acres and accounted for just 23 percent of total acreage 
treated. The WUI share of the program rose to 39 percent last year and 
accounts for 41 percent of our accomplishments to date this year. As of 
July 15th, our bureaus had already treated 364,000 WUI acres, more than 
twice as much as they did in all of 2001.

        Responses of Tom Weimer to Questions From Senator Smith

    Question 1. A permit system for boaters, unlike any other existing 
permit system, has been implemented by the Bureau of Land Management on 
the lower Deschutes River in Oregon as part of a settlement agreement. 
From all reports, that system is utterly failing. Boaters cannot even 
access BLM's website to obtain permits. What steps will you take at the 
Department to ensure compliance with the settlement agreement--both in 
terms of making the permit system work and ensuring fair and adequate 
river access? Given that we are at the height of the boating season, 
how quickly can my constituents and the professional outfitters who 
depend on the river for their livelihoods expect a resolution of this 
issue?
    Answer. In mid-April 2005, the BLM received a report from the 
Department of the Interior Inspector General identifying some potential 
security issues with its network and web sites. In response, in 
consultation with the Department, all of the BLM web sites, with the 
exception of some fire-related sites, have been disconnected, and other 
actions have been taken to secure the information while its Information 
Resources Management staff works to resolve the issues.
    In addition, the BLM is currently involved in a court action in 
which the adequacy of information security is an issue. Failing to 
demonstrate adequate protections could result in a much longer-term, 
mandatory disconnection. As a consequence, it is imperative that all 
sites be properly secured and tested before being reconnected.
    The BLM web site is an important aspect of customer service, and 
the BLM takes seriously its obligation to protect and ensure the 
integrity of its internal information systems and the on-line 
information provided to its customers. Improving security in the short 
term will also allow the BLM to serve its visitors better in the 
future.
    Because the BLM is a large organization with a great deal of 
information and many systems that support its mission, reengineering 
the web infrastructure to enhance the manageability and security of 
these assets is a complicated effort that will take months to complete. 
The BLM is aware of the inconvenience this causes and greatly 
appreciates the public's understanding and patience.
    Boater passes (including those covered by the limited entry 
provisions of the settlement agreement) continue to be available 
through all authorized vendors. Additionally, as prescribed in the 
Lower Deschutes River Management Plan settlement agreement, a published 
toll-free number (1-866-588-PASS (7277)) has been activated to provide 
an alternative avenue for public purchase of boater passes. Callers can 
receive the pass through the mail, via e-mail address, or by fax. 
Effective July 18, 2005, the Prineville BLM Office will be extending 
the hours of operation of the 800 number. Sales of boater passes in 
these two venues should allow the BLM to comply with the settlement 
agreement until security issues with the closed portion of the web site 
can be resolved.
    Question 2 The Steens Mountain Wilderness and Protection Act of 
2000 designated 170,000 acres of wilderness which is being managed by 
the Bureau of Land Management in Oregon through the Steens Mountain 
Cooperative Management and Protection Area. I remain very concerned 
that provisions within the Act guaranteeing access and economic use of 
private inholder properties within the Area are not being followed by 
the BLM as it develops the management plan for the Steens. What 
assurances can you provide that all inholders will retain their full 
historic access and use of their properties? If the Management Plan 
adopted by the agency in any way limits that usual and historic access 
and use, what steps will the agency be taking to resolve this problem 
with individual landowners?
    Answer. The Steens Mountain Cooperative Management and Protection 
Act of 2000 (P.L.106-399) (the Steens Act) established both a 500,000-
acre Cooperative Management and Protection Area (CMPA) and an 
approximately 170,000-acre Wilderness Area, which is wholly contained 
within the boundaries of the CMPA.
    The Steens Act required the BLM to provide ``reasonable access to 
private lands within the boundary of the Wilderness Area.'' The BLM has 
been working through the Steens Mountain Advisory Committee (SMAC) to 
address the issue of inholder motorized access in the Wilderness Area.
    Based on recommendations of the SMAC, the BLM prepared an 
environmental assessment (EA) and in June 2004 issued a decision to 
permit motorized access from May through November to the Ankle Creek 
Route, which is a route that was the subject of considerable 
controversy in the scoping process. The decision was appealed to the 
Interior Board of Land Appeals (IBLA), which issued a stay preventing 
the BLM from implementing its decision. The BLM interprets the stay as 
a return to the management practices that precede the EA. Allowable 
uses prior to the EA included motorized access to the inholdings along 
the Ankle Creek Route at historically established levels.
    In April 2005, the BLM also issued the Snowmobile and Berrington 
Trail Access Analysis EA. The BLM is analyzing public comment on this 
EA and expects to issue a final decision in the near future.
    The BLM will continue to work with the SMAC and the inholders to 
continue to provide reasonable access to their inholdings.

       Responses of Tom Weimer to Questions From Senator Bingaman

                        MIDDLE RIO GRANDE BASIN

    Question 1. I have had a recent round of correspondence with 
Assistant Secretary Scarlett regarding funding needs for the Middle Rio 
Grande Basin in New Mexico. In that correspondence, Ms. Scarlett 
indicated that the Department would include an interagency cross-cut 
budget in its fiscal 2007 budget request to help address endangered 
species and water supply issues in the basin. I believe that commitment 
is very important if we are to continue to make progress in improving 
the Rio Grande environment while continuing to protect the interest of 
water users.
    Are you familiar with the correspondence that I'm referring to? If 
so, will you help to develop a cross-cut budget for the Middle Rio 
Grande if you are confirmed?
    Answer. Yes, my office was involved in the preparation of Assistant 
Secretary Scarlett's correspondence. I am committed to developing a 
cross-cut budget with Reclamation, the U.S. Fish and Wildlife Service, 
and any other agencies deemed appropriate. The interagency effort to 
develop this cross-cut budget has already begun.
    Question 2a. I have read that Kane County, Utah has placed many 
unauthorized signs within the Grand Staircase--Escalante National 
Monument and on other environmentally-sensitive lands administered by 
the Bureau of Land Management in Utah, and removed other signs placed 
by the BLM. I understand that the Department has referred these issues 
to the U.S. Attorney's Office in Utah to, but that office has yet to 
pursue legal action.
    Has the Department taken any action on its own to remove the 
unauthorized signs placed by the county or to install replacement signs 
for those illegally removed by the county? If not, why?
    Answer. In a letter sent to Kane County Commissioners on April 26, 
2005, BLM Utah State Director Sally Wisely requested Kane County to 
remove the unauthorized signs that were placed on BLM lands. While some 
signs have been removed by the County, many others remain posted on 
Federal lands as the County continues to take unilateral action without 
coordination or authorization from the BLM.
    All 31 BLM signs that were illegally removed by Kane County in 2003 
have been replaced by the BLM.
    Question 2b. Can the Department take any other actions to address 
this issue, such as imposition of civil fines under the BLM's 
regulations, without a referral to the U.S. Attorney's Office?
    Answer. The BLM first attempts to work collaboratively to resolve 
conflicts such as this. However, under its regulations, the BLM has 
some authority to take administrative actions, including assessing 
trespass damages. The BLM is conferring with the U.S. Attorney's Office 
on the appropriate actions.
    Question 3a. An article in the Salt Lake Tribune last week states 
that a BLM office in Utah is using consultants paid by the oil and gas 
industry to prepare environmental studies for oil and gas drilling 
applications.
    What steps is the BLM taking to ensure there is no conflict of 
interest?
    Answer. The BLM Manual (Section 1114.2.22(C)) (Volunteers) states 
that hosted workers may provide advisory services, but may not make 
substantive recommendations and decisions that are appropriately made 
by BLM supervisors, managers, and employees. Accordingly, work 
assignments for hosted workers are made by BLM supervisors and 
managers, not sponsoring organizations. Prior to the arrival of hosted 
workers at the Vernal Office, BLM identified the projects on which 
hosted workers would be assigned. Neither the hosted workers nor the 
consulting firm that recruited the workers would have any role in 
setting work priorities. Hosted workers do not have access to BLM 
proprietary information and data. Access to data by volunteers is 
limited, carefully monitored, and controlled.
    The BLM is currently reviewing its policies in this area to further 
ensure that hosted workers are assigned to activities that are 
appropriate and in keeping with applicable laws and regulations.
    Question 3b. The article also states that other BLM offices in 
Wyoming and Nevada have used a ``hosted worker'' program. Please 
provide me with all offices that are using, or have recently used 
volunteers or other employee resources paid for by companies seeking 
BLM approval of an application or permit.
    Answer. Based on a survey of its State Offices, the BLM found that 
in addition to the Vernal, Utah office, the White River Field Office in 
Colorado has one hosted worker who works on oil and gas applications to 
drill. No other BLM office uses hosted workers, or volunteers, with 
salaries paid for by outside groups, to perform work on oil and gas 
applications to drill.
    Question 3c. Section 308(e) of the Federal Land Policy and 
Management Act (FLPMA) prohibits the Secretary of the Interior from 
using any volunteers in ``policymaking processes.''
    What specific activities are the consultants paid by the oil and 
gas industry performing in the Utah BLM offices, and is it clear that 
these are not part of the policymaking process?
    Answer. The hosted workers in the Vernal, Utah office, perform 
resource input and scientific analysis in subject matters in which they 
have expertise. These are biologists, archeologists, and 
paleontologists compiling data and conducting analysis necessary to do 
environmental analysis in accordance with the provisions of the 
National Environmental Policy Act. Their work is carefully reviewed and 
signed off by BLM subject matter specialists who are in a supervisory 
role. These consultants have no decision making authority. All 
decisions are made by BLM managers.
    Question 4. The Act of August 25, 1916 directs the National Park 
Service to manage units of the national park system ``by such means 
measures as conform to the fundamental purposes of said parks, 
monuments, and reservations, which purpose is to conserve the scenery 
and the natural and historic objects and the wild life therein and to 
provide for the enjoyment of the same in such manner and by such means 
as will leave them unimpaired for the enjoyment of future 
generations.'' NPS Management Policy 1.4.3 states ``when there is a 
conflict between conserving park resources and values and providing for 
the enjoyment of them, conservation is to be predominant.'' It is my 
understanding that this management policy is consistent with the way 
Federal courts have interpreted the Organic Act. Recently the Director 
of the National Park Service in a written answer submitted to the 
Committee stated she took issue with the interpretation that courts 
have interpreted that the Organic Act gave priority to the directive to 
conserve park resources. I find her response very troubling.
    Can I get your assurance that if confirmed, you will oppose 
attempts to weaken the National Park Service's policy that resource 
conservation its top management priority?
    Answer. The NPS Management Policies issued in 2001 are under review 
in the Office of the Assistant Secretary for Fish and Wildlife and 
Parks. Resource conservation that provides for unimpaired enjoyment for 
present and future generations is clearly stated in the NPS Organic 
Act. I will commit to ensuring that the NPS Management Policies are in 
accord with the law.
    Question 5. Pursuant to instructions in the Presidential 
Proclamation establishing the Kasha-Katuwe Tent Rocks National Monument 
in 2001 the BLM entered into a cooperative management agreement with 
the Pueblo de Cochiti. By all the accounts it appears the agreement has 
been a great success for all involved and I commend both the BLM and 
Pueblo on their work preserving and showcasing this New Mexico natural 
resource. Unfortunately, there have been recurring problems with 
funding the agreement. Management funds have been inconsistent year-to-
year and, I am informed, even funds designated for the Monument have 
been redirected to other uses. This uncertainty and lack of 
transparency in management funding for the Monument presents immense 
management challenges particularly for the Pueblo which often has to 
find monies within their own scarce budget for management of this 
public resource. I'd like for you to look into this matter and see if 
we can establish some kind of baseline requirement for management funds 
for the monument and ensure funds are provided in the President's 
budget in such a way that they actually get to where they are needed.
    Answer. The agreement between the Pueblo de Cochiti and the BLM for 
the management of the Kasha-Katuwe Tent Rocks National Monument has 
been a great success. We take our cooperative agreement seriously. I am 
informed that we are fully funding that agreement and that the BLM is 
also working closely with the Pueblo to secure funding from 
nongovernmental sources to assist them in meeting additional goals 
associated with the management of the monument. If confirmed, I will 
monitor the funding for this agreement to ensure its success.
    Question 6. I was pleased to hear about the discovery of the 
``Snowy River'' cave in my state. This appears to be a significant find 
and Senator Domenici and I will be working to protect the cave in 
legislation coming before this committee in the near future. I am 
somewhat dismayed, however, that there was so little effort on the part 
of the BLM to share information on what was being done in the many 
months of exploration prior to the announcement of the find. I believe 
a more open information exchange would have been far more productive in 
this case. I would like your commitment to make sure to involve all the 
members of the Congressional Delegation in significant work such as 
this and other issues that the Department undertakes in New Mexico.
    Answer. There was a significant delay between the discovery of this 
important new cave and the announcement to the public. Once the BLM in 
New Mexico fully realized the significance of this new discovery, the 
BLM then worked to ensure appropriate protective measures were in place 
prior to a public announcement. You can be assured that in the future 
the BLM will keep you and the entire New Mexico delegation fully 
informed of any new developments with this cave and other issues 
involving the BLM in New Mexico.

                              TERRITORIES

    Question 7. The territories of the United States look to the 
Department of the Interior for assistance and leadership in the proper 
consideration, and if possible the resolution, of issues in federal-
territorial relations. Because the Deputy Assistant Secretary for 
Insular Affairs reports directly to the Assistant Secretary for Policy, 
Management and Budget, if confirmed, you will pay a critical role in 
federal-island relations. Can you assure the Committee of your 
commitment, if confirmed, to respond to the concerns of the islands and 
to engage other federal agencies through the White House Interagency 
Group on Insular Affairs, as appropriate, to assure proper 
consideration of their concerns.
    Answer. If confirmed as Assistant Secretary for Policy, Management 
and Budget, I will oversee the work of the Interagency Group on Insular 
Areas (IGIA), and will be fully engaged in insular issues. I view the 
IGIA as an essential tool for resolving territorial issues that involve 
the jurisdictions of multiple Federal agencies. If confirmed, I will 
work to respond to the concerns of the Islands and to engage other 
Federal agencies through the IGIA, as appropriate, to assure proper 
consideration of their concerns. Making full use of IGIA potential will 
bolster America's relations with its overseas island areas: American 
Samoa, Guam, the Virgin Islands and the Commonwealth of the Northern 
Mariana Islands.

                         TAX AND TRADE POLICIES

    Question 8. The U.S. Virgin Islands, American Samoa , and the CNMI 
are each facing significant job losses and reductions in their local 
revenues in the coming months as a consequence of changes in federal 
tax and trade policies. Would you please provide an estimate of these 
anticipated revenue losses and describe what actions the Department is 
taking to mitigate the impact, including whether the Department is 
considering increases in Departmental funding for the islands in order 
to assure the continuation of essential services.
    Answer. The U.S. Virgin Islands could loose at least $114 million 
annually in tax revenue due to Section 937 of the Internal Revenue 
Code, which is being implemented as part of the Federal Jobs Creation 
Act of 2004. The proposed section would change the residency 
requirements for the U.S. Virgin Islands for tax purposes, and it would 
also change the rules for determining whether income is sourced in a 
territory. The Department, through the Office of Insular Affairs, is 
working with the Department of the Treasury to try to mitigate the 
impact of the new regulations on the territories.
    Phase out of Section 936 of the Internal Revenue code, which has 
provided tax benefits to U.S. companies in the territories, could 
diminish the fishing industry in American Samoa. Other market factors 
could also help diminish the industry as well. Potential revenue lost 
is estimated at $45 million per year should the canneries leave the 
island. American Samoa currently houses the world's largest tuna 
industry, which provides the principle economy of the island, making up 
34 percent of the job market, or about half of all the jobs in private 
industry. Proposed legislation extending Section 936 for American Samoa 
only for the next ten years is pending in Congress.
    Free trade arrangements worldwide could diminish the garment trade 
in the CNMI. Currently, garment operations in Saipan account for 
approximately 38 percent or $80 million of the CNMI's $220 million 
annual budget. The CNMI is working on legislation to modify the U.S. 
Tariff Code to help the CNMI better compete in the international market 
by reducing the local content value-added requirement from 50 percent 
to 30 percent for all territories.

                   ANNUAL FINANCIAL ASSISTANCE REPORT

    Question 9. In 2003, the Congress approved extension of the 
Compacts of Free Association with the Republic of the Marshal Islands 
(RMI) and the Federated States of Micronesia (FSM). The new law, Public 
Law 108-188, established for more rigorous accountability mechanisms 
than had been the case under the previous Compact. One important new 
requirement is that the Department is required to report each January 
to Congress on the use of the $150 million in annual financial 
assistance. Unfortunately, the Department has still not transmitted the 
report that was due last January. Can you explain the delay and assure 
the Committee that we will have that report within the next 30 days?
    Answer. Public Law 108-188 calls for the President to report 
annually to the Congress on the implementation of the Compacts of Free 
Association. The report for 2004 is the first of such reports. As such, 
it required a new template of analysis and review. I am informed that 
the report will be completed and sent to the Congress soon.

                             HAWAII OFFICE

    Question 10. A further action taken to improve accountability in 
the RMI and FSM was the establishment of an oversight office in Hawaii. 
During a recent trip to the islands, however, our joint committee staff 
learned that the staff in the new Hawaii office has insufficient funds 
to travel to the islands and properly oversee the use of U.S. funds. 
Can you please describe what steps the Department is taking to resolve 
this problem?
    Answer. Travel for Office of Insular Affairs personnel in our 
Hawaii office is essential for oversight of Compact implementation in 
the Republic of the Marshall Islands and the Federated States of 
Micronesia. The Office of Insular Affairs has resolved the travel fund 
shortage for our Hawaii office by making available $30,000 for 
additional fiscal year 2005 travel. For FY 2006, the budget proposes a 
program increase of $84,000 to provide additional resources, including 
travel funds, to the Hawaii office.

             INSULAR AREA BUSINESS OPPORTUNITY CONFERENCES

    Question 11. The Department has sponsored a series of Insular Area 
Business Opportunity Conferences in D.C., California, and in the 
Pacific islands. Please provide the Committee with an accounting of the 
total cost of these conferences, the source of the funding from within 
the OIA budget, and identify specific private investments which have 
resulted from the conferences.
    Answer. The following chart responds to the first part of your 
request.
Costs

----------------------------------------------------------------------------------------------------------------
                                                                              Cost
                 FY Year                            Description              (in $)             Source
----------------------------------------------------------------------------------------------------------------
2003....................................  2003 Investment Development         45,000  Technical
                                           Conference-- Washington, DC                Assistance
                                           (Costs include event
                                           management and some travel).
2004....................................  2004 Business Opportunities
                                           Conference (costs broken down
                                           below).
                                          Marketing/Outreach Support.....     74,000  Technical
                                                                                      Assistance
                                          Events Management/Venue Costs..     83,000  Technical
                                                                                      Assistance
                                          Staff Travel (Including             43,000  General
                                           outreach events).                          Account
2005....................................  Business Opportunities Mission
                                           to Guam, Saipan, and Palau
                                           (Costs broken down below).
                                          Marketing Outreach Support.....     28,000  Technical
                                                                                      Assistance
                                          Events Management/Logistics         31,000  Technical
                                           Support.                                   Assistance
                                          Staff Travel...................     30,000  Technical
                                                                                      Assistance
                                                                          -----------
Total                                       .............................    334,000
----------------------------------------------------------------------------------------------------------------
* Note: The 2003 Conference focused on opportunities in the four U.S.-flag jurisdictions only. The 2004 program
  was expanded to include the three Freely Associated States. In both cases, however, the agendas depended
  heavily on information and contacts developed by the Island Business Fellows program.

Results
    a. Outreach: Attendance at both conferences exceeded expectations 
by as much as 100%; Attendance in 2003 was 550 (expected 250--300); in 
2004, attendance was estimated at 1200 (target 600--800). In both 
cases, attendees from the mainland were at the decision maker level for 
their respective companies/organizations. Based on the experience in 
2003, a private firm was contracted to provide support to the outreach 
and recruitment efforts for the 2004 event and also the mission. 
Significantly, a majority (nearly two-thirds) of the participants in 
the 2005 Mission attended one of the two conferences or had been 
previously reached by our outreach efforts.
    OIA has built up a significant body of knowledge as a result of its 
outreach and other efforts. The contacts database begun in 2003 now 
lists over 2500 business and government contacts in the insular areas 
and in the 50 States. In addition, a significant body of knowledge on 
business opportunities in each of the seven jurisdictions has been 
developed; this will be used for outreach on future missions and 
conferences. By its nature, this effort is evolutionary, each step and 
component feeding the next. The efficacy can be seen in the results of 
the recruitment for the 2005 Mission-companies like Fluor, Hilton, and 
Unified Western Grocers, as well as some very specific types of 
companies, including the operator of a fleet of live-aboard dive boats, 
were successfully recruited and participated. Virtually every mission 
participant is now pursuing some new business opportunity in one or 
more of the three areas visited.
    b. Business Opportunities under development by participants in the 
Conferences and Mission

  <bullet> Resort hotel development--CNMI
  <bullet> Nurse training program--CNMI\1\
---------------------------------------------------------------------------
    \1\ The mainland participant has already purchased a hotel on 
Saipan to house her students.
---------------------------------------------------------------------------
  <bullet> Distance learning courses (university level)--Guam and CNMI
  <bullet> Housing development--Palau\2\
---------------------------------------------------------------------------
    \2\ The mainland partner is bringing a team of business partners.
---------------------------------------------------------------------------
  <bullet> Nationwide cellular and satellite communications systems 
        improvement--Palau
  <bullet> Customs and immigration systems overhaul and development--
        Palau, CNMI, and RMI\3\
---------------------------------------------------------------------------
    \3\ These projects involve a growing network of IT and hardware 
firms in both the islands and the mainland and is being driven by a 
company in American Samoa.
---------------------------------------------------------------------------
  <bullet> Deep sea mining--CNMI
  <bullet> Resort and attractions development--Palau\4\
---------------------------------------------------------------------------
    \4\ There are several different projects currently under 
development, including a hotel and several underwater attractions.
---------------------------------------------------------------------------
  <bullet> Live-aboard Dive Boat start-up--Palau and FSM
  <bullet> Homeland security public-private partnership--Guam\4\
  <bullet> Retirement community--CNMI\2\
  <bullet> Sale of interest in shipyard--American Samoa
  <bullet> Plastic bag factory--CNMI or FSM
  <bullet> Airport Commercial Park--Guam\4\
  <bullet> Black pearls cultivation--RMI and FSM


</pre></body></html>
